<html>
<title> - PROBLEMS WITH ICE INTERROGATION, DETENTION, AND REMOVAL PROCEDURES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   PROBLEMS WITH ICE INTERROGATION, DETENTION, AND REMOVAL PROCEDURES 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 13, 2008

                               __________

                           Serial No. 110-80

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

40-742 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





































                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


































                            C O N T E N T S

                              ----------                              

                           FEBRUARY 13, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     2

                               WITNESSES

Mr. Gary Mead, Assistant Director for Detention and Removal, U.S. 
  Immigration and Customs Enforcement
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6
Mr. James J. Brosnahan, Senior Partner, Morrison & Foerster, LLP
  Oral Testimony.................................................    30
  Prepared Statement.............................................    32
Ms. Marie Justeen Mancha, Student, Tattnal County High School
  Oral Testimony.................................................    34
  Prepared Statement.............................................    35
Mr. Michael Graves, Member United Food and Commerical Workers 
  Union Local 1149
  Oral Testimony.................................................    36
  Prepared Statement.............................................    38
Ms. Kara Hartzler, Attorney, Florrence Immigrant and Refugee 
  Rights Project
  Oral Testimony.................................................    40
  Prepared Statement.............................................    43
Ms. Rachel E. Rosenbloom, Human Rights Fellow, Center for Human 
  Rights and International Justice at Boston College
  Oral Testimony.................................................    67
  Prepared Statement.............................................    69
Mr. Dan Stein, President, Federation for American Immigration 
  Reform
  Oral Testimony.................................................    79
  Prepared Statement.............................................    80

                                APPENDIX

Material Submitted for the Hearing Record........................    93


   PROBLEMS WITH ICE INTERROGATION, DETENTION, AND REMOVAL PROCEDURES

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2008

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:38 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Jackson Lee, 
Waters, Delahunt, Sanchez, Ellison, King, and Gallegly.
    Ms. Lofgren. Thank you. We have noticed this for a 
postponement to 2:30. We have a private bill we need to take 
action on, but we need a working quorum to do that. So we will 
interrupt our hearing when we obtain that quorum, and we will 
begin now with our oversight hearing.
    This is the hearing of the Subcommittee on Immigration, 
Citizenship, Refugees, Border Security, and International Law.
    And without objection, the Chair will recess the hearing as 
necessary to accommodate our vote.
    Six months ago, I first heard about a U.S. citizen deported 
from the United States, Pedro Guzman, who had to get himself 
caught by the Border Patrol in order to get back into his own 
country.
    At that time, I had hoped that this case was an isolated 
incident. I asked the Immigration and Customs Enforcement for 
answers on this case, and specifically for procedures to help 
prevent another deportation of a U.S. citizen.
    Instead, I received a perfunctory response more than a 
month later with no answers and an apathetic attitude toward 
protecting U.S. citizens from deportation.
    Without objection, I would like to enter my letter and the 
ICE response into the record.
    There is never a justification for the deportation of U.S. 
citizens, let alone the negligent attitude toward helping to 
locate and return a U.S. citizen when he or she is erroneously 
deported.
    Six months ago, I feared this Nation might be entering 
another era that would become one more blight in our Nation's 
history. Based upon the witness testimony I have read for today 
and a long list of other individual cases, I feel we have 
arrived at that era where an overzealous government is 
interrogating, detaining, and deporting its own citizens while 
treating noncitizens even worse.
    It is true that ICE's enforcement capacity has grown 
exponentially in the last several years. But based upon today's 
testimony, it appears training and oversight at ICE has lagged 
far behind.
    I am hopeful that this hearing will not only show us where 
the problems lie but also lead us to solutions. I have many 
questions beginning with the long list I asked in my June 26, 
2007, letter to ICE that was essentially ignored.
    I would like to know specifically what procedures are in 
place to train and oversee ICE agents during detention, 
interrogation, and removal processes. And I would like to know 
exactly how ICE ensures it is not interrogating, detaining, or 
deporting U.S. citizens.
    And I would like ICE to explain how it is that its 
policies, procedures, and management allows for each of the 
situations described today by our U.S. citizens, witnesses, or 
their representatives.
    At this point, I would now like to recognize our 
distinguished Ranking minority Member, Steve King, for his 
opening statement.
    Mr. King. Thank you, Madam Chair.
    U.S. citizenship is, of course, an absolute defense to 
immigration removal proceedings. No citizen should live in fear 
of being detained by immigration officials or deported from the 
country, so our government should do everything reasonably 
necessary to ensure that does not happen.
    I am confident that ICE is taking those steps that we would 
all want it to take to ensure that U.S. citizens are not being 
detained or deported even for brief periods.
    That is not to say that there has never been a U.S. citizen 
detained or deported. But it is a very rare occurrence, at 
least statistically.
    ICE will describe a few instances in which a U.S. citizen 
was detained or deported.
    For instance, a U.S. citizen child was detained after his 
illegal immigrant father was arrested on a fugitive warrant. 
ICE repeatedly asked the father to provide the name of a 
caretaker for the child, but the father refused to do so.
    So ICE was faced with the choice of holding the boy until 
Child Protective Services could be called or releasing him 
without supervision. Luckily, after several hours, the father 
gave ICE the name of a caretaker, and the child was released.
    ICE also indicates that some U.S. citizens chose to claim 
Mexican citizenship and agree to voluntary removal to avoid 
background checks that may reveal a criminal record. These 
persons know they can later easily enter back into the United 
States from Mexico using U.S. identification documents.
    There are often extenuating circumstances in these cases of 
deportation of U.S. citizens. There are safeguards in place to 
prevent the detention and deportation of citizens.
    Those safeguards include everything from questioning and 
records checks by ICE officials to processes set out in the 
Immigration and Nationality Act for a Federal Court to follow 
up a claim when U.S. citizenship is made.
    ICE does not aim to harass and deport U.S. citizens. It has 
got a lot of work to do. It doesn't need to take on any more.
    It seems to me that instead of focusing a hearing on the 
extremely unusual instances where citizens have been 
accidentally detained or deported, we should focus on the 
millions of illegal immigrants who should but are not being 
removed from this country.
    Last year, ICE removed 238,204 illegal immigrants from the 
United States. That number includes many thousands of expedited 
removals at ports of entry and along the borders. So the number 
of people deported is actually a lot less.
    There are an estimated 12 to 20 million illegal immigrants 
in the United States. I think the number is greater than 20 
million. But by those numbers, only 1 to 2 percent or less of 
the U.S. illegal immigrant population was removed last year.
    Our government should be deporting many more people. We are 
hardly ahead of the Mexican government, which deported, by one 
set of records, 125,000 last year. My notes from a speech by 
Vicente Fox just late last fall say that they had deported 
250,000.
    In either case, either proportionally or in raw numbers--
the population of Mexico is about a third of that of the United 
States--they are deporting more people out of Mexico than we 
are out of the United States.
    While I understand the reason behind this hearing, we 
should not take a lack of malice on the part of ICE--we should 
note the lack of malice on the part of ICE to detain or deport 
U.S. citizens. We should note the rarity and brevity of 
occurrences, and we should note the safeguards that ICE has in 
place to reduce such occurrences to the absolute minimum.
    Finally, as to worksite enforcement actions at locations 
where mass lawbreaking is taking place, the U.S. citizens 
affected should blame their reckless employers and illegal 
immigrant co-workers.
    They should not blame the dedicated Federal officials 
trying to enforce our laws for all our benefit.
    There is a huge human haystack of humanity that crosses our 
border every night that has piled up here in the United States. 
And it is the cumulative effect of lack of enforcement going 
clear back to 1986; employers who break the law, and the 
incentive that is there is a big job that ICE has ahead of 
them.
    With all of those numbers to work with, and by the way, 
interdicting my numbers, a year before last, 1,188,000 on our 
southern border--it is a huge number. To deal with all of that 
without a single mistake would be asking too much of a mortal.
    And so we want you to do your best at ICE. And we want to 
look at these cases and make sure that American citizens are as 
protected as possible as part of your job in enforcing 
immigration law and also, by enforcing it, protecting American 
citizens.
    I thank the witnesses in advance for their testimony.
    Thank you, Madam Chair.
    And I yield back my time.
    Ms. Lofgren. Thank you.
    We have two distinguished panels of witnesses here today to 
help consider the important issues before us.
    Seated on our first panel, it is my pleasure to introduce 
Gary Mead. Gary Mead is the assistant director of management in 
the Office of Detention and Removal Operations at Immigration 
and Customs Enforcement.
    Prior to joining ICE in 2006, he served with the U.S. 
Marshals Service. He worked as the associate director for 
administration, the associate director for operations support, 
and the assistant director for management and budget. He holds 
a bachelor's degree from Sacher University of New York, a 
master's from Bowling Green State University, and graduated 
from the management program at the National Defense University 
here in Washington.
    Mr. Mead, your written statement will be made part of the 
record in its entirety.
    We ask that each witness summarize their testimony in 5 
minutes or less and help to stay within that timeframe.
    We do have that little machine in front of you. When the 
yellow light goes on, it means you have 1 minute left. And when 
the red light goes on, we do ask you to complete your thoughts 
and conclude, so that we can get to our questions.
    So we would invite you now, Mr. Mead, to give us your 
testimony.

 TESTIMONY OF GARY MEAD, ASSISTANT DIRECTOR FOR DETENTION AND 
       REMOVAL, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Mead. Good afternoon, Chairman Lofgren and 
distinguished Members of the Subcommittee.
    My name is Gary Mead, and I am the assistant director for 
management in the Office of Detention and Removal Operations at 
U.S. Immigration and Customs Enforcement.
    Among its many responsibilities, ICE promotes public safety 
and national security by ensuring the safe and efficient 
departure from the United States of all removable aliens 
through the fair enforcement of the Nation's immigration laws.
    One of its core missions is the apprehension, detention, 
and removal of inadmissible and deportable aliens. In carrying 
out this mission, ICE officers are ever mindful of their sworn 
duty to protect the rights of all individuals to the best of 
their abilities.
    ICE officers must interview hundreds of thousands of 
individuals annually to determine citizenship and immigration 
status. ICE uses its authority to question individuals 
regarding their citizenship and legal right to be in the United 
States with the utmost professionalism and respect for 
individual rights.
    Over the last 4 years, more than one million individuals 
have passed through ICE detention facilities. During fiscal 
year 2007 alone, more than 310,000 illegal aliens passed 
through our custody and approximately 280,000 of these were 
removed from the United States.
    At no time did ICE knowingly or willfully place a U.S. 
citizen in detention or remove them from the United States.
    ICE immediately releases individuals who are U.S. citizens 
or who may have a legitimate claim to derive U.S. citizenship. 
However, it should be noted that some people falsely assert 
U.S. citizenship in order to evade deportation.
    It is common for ICE's law enforcement personnel to 
encounter individuals who make false claims about their 
immigration status or citizenship. For example, in 2007, ICE 
investigators made more than 1,530 criminal arrests in cases 
involving document or benefit fraud.
    Upon arrival in the United States, all applicants for 
admission, including aliens and U.S. citizens, must present 
themselves for examination at a designated port of entry and 
provide proof of citizenship and their right to enter the 
United States.
    Away from the ports of entry, ICE bears the burden of 
proving that the individual is not a U.S. citizen when he or 
she is questioned by an immigration officer. ICE may engage in 
consensual encounters like any law enforcement officer.
    Once an individual provides a credible response that he or 
she is a U.S. citizen, questioning regarding alienage must 
stop. If the individual gives an unsatisfactory response or 
admits that he or she is an alien, the individual may be asked 
to produce evidence that he or she is lawfully present in the 
United States.
    For cases involving detainees in ICE custody who are 
pending removal from the United States, ICE works actively to 
ensure any claims of U.S. citizenship are timely and properly 
adjudicated.
    If a detainee makes a credible claim of U.S. citizenship, 
ICE officers will ask the detainee whether he or she can 
produce supporting evidence. In addition, the officer will 
review the detainee's files and query all relevant databases to 
support the detainee's claims.
    In addition to the many safeguards that are already in 
place that I can discuss further, with the exception of Mexico 
and Canada, all people removed from the United States must 
obtain a travel document from the country in which they are 
being removed to.
    Those countries often engage in consular interviews and 
conduct their own detailed review to determine that the person 
being removed is, in fact, a citizen of the country that they 
are going to.
    Even though ICE has never knowingly or intentionally 
detained or removed a U.S. citizen, ICE is currently reviewing 
its policies and procedures to determine if even greater 
safeguards can be put in place to prevent the rare instance 
when this event might potentially occur.
    ICE anticipates having this review completed within the 
next 60 days and would welcome any suggestions from the 
Committee.
    I want to thank you, Madam Chairwoman and Members of the 
Subcommittee, for the opportunity to testify today on behalf of 
the men and women of DRO and ICE. And I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Mead follows:]
                   Prepared Statement of Gary E. Mead

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you. Mr. Mead.
    I am sure we do have questions. I will begin first by 
asking you if ICE has any jurisdiction over United States 
citizens.
    Mr. Mead. No, ma'am. We have no jurisdiction.
    Ms. Lofgren. The Code of Federal Regulations specifies that 
if an immigration officer ``has a reasonable suspicion based on 
specific articuable facts that a person being questioned is in 
the U.S. legally, then the officer may briefly detain the 
person for questioning.''
    What constitutes a brief period of detention?
    Mr. Mead. Well, I think that is fact-dependent. During the 
interview of an individual, ICE officers are trained to ask 
questions to determine whether or not the person is in the 
country; whether or not the person is a citizen to begin with.
    Once in the interior, our officers are obligated to 
determine the threshold question of whether or not this is a 
U.S. citizen.
    If they satisfy themselves with reasonable suspicion that 
the person is not a citizen, then they can move on to 
additional questions to determine whether or not the alien is 
here legally or whether they are not here legally.
    Ms. Lofgren. We have, and I am sure you had available, the 
testimony of Mr. Mike Graves in the second panel, who testifies 
that he and hundreds of his co-workers in the Swift Plant in 
Marshalltown, Iowa were essentially held prisoner for 8 hours 
without food or water or contact with their families.
    Would you consider 8 hours a brief period of time?
    Mr. Mead. Well, I think it would depend on the 
circumstances, Congresswoman.
    At a worksite operation, we only enter the facilities 
pursuant to either a civil or a criminal arrest warrant. In 
rare occasions, we have the consent of the manager or the owner 
to enter.
    Once in the facility, we ask the manager or owner to gather 
the employees in a safe place. And at that point, we begin our 
due diligence of identifying who is a U.S. citizen or a legal 
permanent resident and identifying who may be an illegal alien.
    Depending upon the number of people there, that can take 
some time. But as soon as people are identified as U.S. 
citizens, they are allowed to leave. Depending upon what their 
bosses say, they either go home or they go back to work.
    Ms. Lofgren. Based on your knowledge of ICE's policy 
interpreting this regulation, what would you say was the 
reasonable suspicion based on specific articuable facts that 
would lead an ICE agent to handcuff a U.S. citizen like Mr. 
Graves and search his locker and question him about how he was 
from Iowa?
    Mr. Mead. I don't know the specific circumstances of what 
did or didn't happen to Mr. Graves. But during these worksite 
operations, as I said, our initial emphasis is on separating 
the citizens from the non-citizens who may not have a right to 
be here.
    Those people who are identified as potentially illegal 
aliens are taken to a process location, a processing center, 
where a much more thorough examination of their situation is 
conducted, including giving them the right to contact their 
attorneys if they have them, contact free legal services, 
contact consular officials.
    And so it is during that process that even more attention 
is paid to making sure that anyone who is ultimately placed in 
detention is, in fact, a potentially removable alien.
    Ms. Lofgren. The Code of Federal Regulations states that 
when ICE arrests an individual, it must either grant voluntary 
departure or determine whether the person will remain in 
custody and/or be placed in removal proceedings within 48 hours 
of the arrest, except in the event of an emergency or 
extraordinary circumstances.
    Can you tell me how many times ICE has failed to make this 
determination within 48 hours and how many times, if that has 
ever happened, that has been due to emergency or extraordinary 
circumstances?
    And give some example of what would be extraordinary or an 
emergency.
    Mr. Mead. Off the top of my head, Congresswoman, I don't 
know how many times that happened. We certainly do everything 
possible to serve NTA's on people within the required 48 hours.
    And it would take a truly extraordinary circumstance--off 
the top of my head, I can't think of one--where we would not be 
able to do that. But if we have such information, I would be 
happy to----
    Ms. Lofgren. Well, I have a very large number of questions. 
My time is almost up. But I will be sending the agency my 
questions. And I would hope that I would have an answer to them 
promptly; certainly, within the next 2 weeks.
    I would just, finally, like to clarify. A McClatchy 
newspaper article describes the plight of--an American with a 
southern accent, I might add, for some reason, ICE thought was 
a Russian.
    And the spokesman for ICE was quoted in the paper--I don't 
know if he was quoted directly--that the burden of proof is on 
the individual to show that they are legally entitled to be in 
the United States.
    Is this the agency's position? And, if so, how would you 
reconcile that with the INS Widbey case which the Supreme Court 
has gifted us with?
    Mr. Mead. I don't know the context within which that 
question was asked.
    I think I was saying that I don't recall or I don't know 
the context of which the ICE spokesman was answering that 
question. But as I said in my opening remarks, once we are away 
from the port of entry, ICE has the authority to consensually 
speak with people about whether or not----
    Ms. Lofgren. But that is not the question. The question is: 
Who has the burden of proof?
    Mr. Mead. Well, I was about to tell you that.
    We have the burden of proof to determine if someone is a 
citizen. We do that through questioning----
    Ms. Lofgren. Okay. Thank you. Then the state will just be..
    Mr. Mead. Okay.
    Ms. Lofgren. Thank you.
    I turn now to our Ranking Member, Mr. King, for his 
segment.
    Mr. King. Thank you, Madam Chair.
    Thank you, Mr. Mead, for your testimony.
    The numbers of--I think it was in your testimony--the 
numbers of personnel that are handled by ICE in a year, could 
you refresh me as to that number?
    Mr. Mead. Yes. Over the past 4 years, approximately a 
million people have passed through our detention facilities. 
And last year alone, we had over 310,000 pass through 
detention. And of that number, approximately 280,000 were 
actually removed from the country.
    Mr. King. And can you tell me, out of that universe of 
either last year's number of 310,000 or the aggregate of the 
last 4 years and the million, about how many U.S. citizens were 
deported out of that list of people?
    Mr. Mead. To the best of our knowledge, only one U.S. 
citizen was removed during that period of time.
    Mr. King. Was that in your original testimony?
    Mr. Mead. My original testimony?
    Mr. King. The testimony that you gave here today?
    Mr. Mead. No. I did not cover that.
    Mr. King. Could I ask you why you would not have included 
that?
    Mr. Mead. For the sake of time. It is in our written 
testimony, I believe.
    Mr. King. Okay. And the individual would be the individual 
with the southern accent who said he was Russian?
    Mr. Mead. No. It was Mr. Guzman that the Chairwoman 
mentioned.
    Mr. King. Okay. That just strikes me as an exceptionally 
high statistical average. If you are an American citizen and 
you are encountered by ICE, the case that we are talking about 
here would be an extreme exception rather than any kind of a--
is there any way that there could be a pattern here that I am 
missing?
    We are trying to fix a policy or put a solution to 
something that there is an anomaly that exists?
    Mr. Mead. We don't think so, Congressman.
    There are numerous safeguards in place to prevent the 
removal of a U.S. citizen. And as I said at the end of my 
statement, not the least of which is, other than Canada and 
Mexico, every other foreign country has to issue travel 
documents allowing the person to be returned.
    And they often do consular interviews, and they do a 
complete record check in their own countries to determine that 
this is, in fact, a citizen of their country.
    Mr. King. Okay. We have an unpublished report that is part 
of the dialogue here that shows that, perhaps, 125 people were 
identified for deportation that were actually U.S. citizens. 
Are you aware of that unpublished report?
    Mr. Mead. Yes. We spoke with a representative of the Vera 
Institute, and they claim that there is no unpublished report. 
The Vera Institute is under contract with the Executive Office 
for Immigration Review.
    Mr. King. And did the Vera Institute ever maintain any data 
on those 125 people? Could they be analyzed to see why it was 
that they alleged they were----
    Mr. Mead. Well, what they said was that of the 124 people 
in question, they said that they planned to seek a claim to 
U.S. citizenship. The Vera Institute----
    Mr. King. Is there any evidence that they actually did seek 
a claim of U.S. citizenship?
    Mr. Mead. No.
    Mr. King. No breakdown of that number of 124 or 125?
    Mr. Mead. No. They did not keep any biographical data so 
there is no----
    Mr. King. No way to go back and see if it was anything 
other than a fabrication?
    Mr. Mead. No. But they clearly stated that these were not--
they did not say that these were U.S. citizens. They just said 
that they planned to pursue a claim of U.S. citizenship.
    Mr. King. That seems to be the basis of our discussion 
here, a single incident, and then a study that is now being 
reported that can't be verified.
    But I want to ask you about your practices when you go in 
and conduct a raid on a, say, on a food processing plant, which 
I am quite interested in. How do you deal with people who are 
clearly unlawfully present in the United States who have duties 
to take care of infant children? Say, a nursing mother, for 
example. How do you deal with a case like that?
    Mr. Mead. We deal with it twice. We deal with it at the 
worksite. If anyone makes that claim, assuming that they are 
not a criminal or someone who we would otherwise want to 
detain, we release them immediately on an order of supervision.
    We make sure that when we get people to the processing 
site, we ask them these questions again. We go to the, I think, 
the extra step of making sure that these people are 
interviewed, not by law enforcement officers, but by officers 
of the public health service.
    And, again, if they have a sole caregiver or humanitarian 
issue, barring a criminal record, we would release them.
    Mr. King. A sole caregiver, a humanitarian issue, or a 
nursing mother illegally present in the United States--
unlawfully present in the United States and, perhaps, 
unlawfully working is still released back into society by ICE?
    Mr. Mead. That is correct.
    Mr. King. It doesn't sound very hardhearted to me, Mr. 
Mead. And hopefully the U.S. citizens are treated with the 
minimum standards that you are treating illegals with.
    And I thank you for your testimony, and I yield back the 
balance of my time.
    [Whereupon the Committee proceeded to other business.]
    [Whereupon the hearing resumed.]
    Ms. Lofgren. And now we will return to our hearing.
    We now turn to Mr. Gutierrez, in order of arrival at the 
hearing, for any questions he may have for ICE.
    Mr. Gutierrez. Thank you very much.
    Well, number one, I like the precedent that we are setting 
on the private bill. And I find it so ironic that some of the 
most anti-immigrant Members of the House, that is Stan 
Lipinski, who votes against immigrants all time, gets this 
private bill up.
    Vote for a good cause. I am going to vote for it.
    But I always wonder where the rest of the private bills are 
at from those of us that actually support immigrants day in and 
day out. Just a comment on that.
    Interesting point about who you detain. Now, in Chicago, 
you detained, at a working, operating mall, did you not detain 
a hundred people at this mall in Chicago in midday?
    Mr. Mead. I am sorry. I didn't hear the question.
    Mr. Gutierrez. Oh, I am sorry.
    Did you not--did not ICE take an enforcement action at 2 
o'clock in the afternoon at a mall on 26th and Pulaski in the 
city of Chicago?
    Mr. Mead. I am not familiar with that action.
    Mr. Gutierrez. You are not familiar with that action. Well, 
you know, you should be up-to-date if you are going to come 
because you are real familiar--when the Ranking Member from the 
Republican side asks you questions. You guys have a real, you 
know--catcher attitude. But when we ask you questions, you 
don't remember.
    That is okay. I would have a faint memory if I were you, 
too, about this situation.
    But the fact is that is it not true that ICE will go in to 
a public area and specifically target people of a certain 
nationality?
    Mr. Mead. No, sir. That is not true.
    Mr. Gutierrez. That is not true?
    Mr. Mead. No, sir.
    Mr. Gutierrez. Oh. Then you don't know anything about 
Chicago? See, because in Chicago, your ICE official went with 
the U.S. Attorney standing next to her and said we were 
determined to walk into this mall and detain every Hispanic 
male between the age of 18 and 45--we have Hispanic males--they 
asked us--did you detain every Hispanic male between the age of 
18 and 45, and she said, yes, we did. And we subsequently, 
after that, determined whether or not they were the people we 
were looking for.
    You are telling me you don't take those kinds of actions?
    Mr. Mead. No, sir. I am not familiar with that operation.
    Mr. Gutierrez. And why wouldn't you take such an action?
    Mr. Mead. As I said, it is not our policy to target people 
on the basis of nationality.
    Mr. Gutierrez. So enlighten me. What should I do as a 
Member of Congress at this particular point so that we could 
not have this happen again?
    Mr. Mead. Well, sir----
    Mr. Gutierrez. Because I already informed your boss. We 
called right away, and he said it was fine. So you have a 
little problem with Chertoff, just so that you understand.
    He said it was fine, the actions of the ICE agents in terms 
of determining a specific ethnic group with a specific age and 
walk into an area and just arrest them.
    Because I asked him, I said, ``So what if they were looking 
for someone that was White, male, between the age of 25 and 40? 
Would you go into Lord and Taylor? Would you go into Macy's and 
shut the store down and then stop every White male between the 
age of 25 and 40 and simply stop them and ask them to prove 
that they were not the person you were after?''
    And he said, no, we never had such an incident.
    And I know you never had such an incident because those 
kinds of things don't happen in America.
    But they do happen in specific geographical communities 
such as mine. So you are saying that it is against the policy 
of ICE to do that?
    Mr. Mead. I said it is not our policy to target people 
based on nationality.
    Mr. Gutierrez. Is it against your policy?
    Mr. Mead. It is against our policy.
    Mr. Gutierrez. It is against it. So in other words, what 
you are testifying here is what the ICE official did in the 
city Chicago, blessed by the U.S. Attorney's office of the city 
of Chicago, was not sanctioned by ICE?
    Mr. Mead. As I said, I don't--I am not familiar with the 
incident.
    Mr. Gutierrez. I know. You know, maybe if I sat over there 
for a while on the Republican side, you would know all the 
answers, and I would have given you all the questions ahead of 
time.
    Unfortunately, this is an adversarial relationship that we 
have here with ICE because you wouldn't be doing that in the 
community of people that I serve.
    Thank you very much for not knowing any of the answers and 
any of the information about a very well, highly-publicized 
case in the city of Chicago in which Secretary Chertoff has 
been fully briefed and informed.
    Thank you very much.
    Ms. Lofgren. I am advised that Mr. Gallegly does not have a 
question----
    Mr. Gallegly. Perhaps, I would like to pursue, maybe----
    Ms. Lofgren. Then I recognize Mr. Gallegly for 5 minutes.
    Mr. Gallegly. Thank you.
    Mr. Gutierrez was going--because I am not familiar with it, 
but just because I am not familiar with it doesn't mean that it 
didn't happen anymore than our witness. But Mr.Gutierrez, can 
you give us some other information?
    You say that you had--how many people, to your knowledge, 
were detained? You said ``arrested.'' Actually handcuffed and 
carried away?
    Mr. Gutierrez. Actually, they were detained. They were 
handcuffed, taken to the back----
    Mr. Gallegly. But they were not arrested?
    Mr. Gutierrez. Well, okay. You want to get--they were 
detained.
    Mr. Gallegly. Okay. So they were----
    Mr. Gutierrez. They were detained by ICE. They were 
handcuffed.
    Mr. Gallegly. Were any of----
    Mr. Gutierrez. If you put handcuffs on me, I think a 
reasonable American citizen will say once the police or a 
government agency handcuffs you, detains you, stops you, you 
are kind of arrested in Chicago. We have that standard.
    Mr. Gallegly. Anyway, that is--maybe we are getting hung up 
on semantics. But as a result of that, of all these folks that 
were detained or temporarily arrested or held, as you would 
say, perhaps, without cause, were any of them, subsequent to 
that, taken into custody or were they all released?
    Mr. Gutierrez. They were all released.
    Mr. Gallegly. So there wasn't one person there that they 
deemed to have committed a crime?
    Mr. Gutierrez. No. They were executing arrest warrants for 
four individuals who were allegedly fabricating false documents 
at this public mall. And so they had the four people. They had 
their pictures, their addresses----
    Mr. Gallegly. So they weren't just looking for illegal 
immigrants; they were looking----
    Mr. Gutierrez. They were looking for a criminal--leaders of 
a criminal enterprise of false documents at a public--at a 
mall. That is why I gave the example what if I were a credit 
card person, scammer, and I was doing this at a big store like 
Lord and Taylor or Marshall Field or Macy's----
    Mr. Gallegly. Did they have----
    Mr. Gutierrez [continuing]. Would they arrest--and let us 
say I was White, between the age of 25 and 40. Would we detain 
every White male in order to find the four people we were----
    Mr. Gallegly. Did they have a specific description of who 
they were looking for?
    Mr. Gutierrez. They did. They did. They knew and they had 
pictures because the next day, the U.S. Attorney put the 
pictures--and they did arrest the people, subsequently, at 
their home. That is usually the way they do things.
    If you know where a person lives, you go to their home and 
arrest them at their home. But this was a place of business, 
and we agreed that we should stamp out all of the illegal 
enterprise----
    Mr. Gallegly. Was this a specific place of business? See, I 
didn't go to law school.
    Mr. Gutierrez. It is a mall.
    Mr. Gallegly. I didn't go to law school, so I don't have 
the good sense of not asking a question I don't know the answer 
to.
    I legitimately don't know the answer, and I am asking. And 
you, obviously----
    Mr. Gutierrez. I would have gone to law school, but I 
couldn't afford to.
    Mr. Gallegly. Okay. Well, I couldn't either.
    But in any event, sometimes it isn't such a bad idea to 
have folks that ask questions that legitimately don't know the 
answer to them.
    So in any event, in this situation, I would like to know 
the real specifics of the environment. Was this where it was 
known to be a place of business for these four alleged 
counterfeiters?
    Mr. Gutierrez. Apparently so.
    Mr. Gallegly. Okay. And when you say a mall, was it a 
specific place in the mall?
    Mr. Gutierrez. A mall. It is an open area where you walk 
in. It is a huge building.
    Mr. Gallegly. So you would--so there is, like, thousands of 
people that were there?
    Mr. Gutierrez. Well, there were hundreds of people there at 
this particular point.
    Mr. Gallegly. But how many were actually arrested?
    Mr. Gutierrez. Detained?
    Mr. Gallegly. By your definition, detained?
    Mr. Gutierrez. Detained? Nearly a hundred.
    Mr. Gallegly. Almost a hundred?
    Mr. Gutierrez. Yes.
    Mr. Gallegly. Okay. I am just--Madam Chairman, I yield 
back.
    Ms. Lofgren. Thank you.
    Next in order of their appearance to the Committee, we 
would recognize Mr. Ellison for any comments or questions he 
may have.
    Mr. Ellison. Mr. Mead, how many ICE raids have been 
conducted since the last 12 months?
    Mr. Mead. I would have to get back to you with a specific 
number on that.
    Mr. Ellison. Can you give me a range of----
    Mr. Mead. My best guess would be maybe a dozen in the past 
12 months. You are talking about worksite----
    Mr. Ellison. Yes.
    Mr. Mead [continuing]. Enforcement? I am guessing. I would 
say maybe a dozen. I can get you a specific answer very 
quickly.
    Mr. Ellison. What criteria do you use before an ICE raid is 
determined to be executed?
    Mr. Mead. Well, it usually takes months of planning, 
involves U.S. Attorney. It involves, sometimes, undercover 
agents, informants to determine whether or not there is a 
criminal activity involving immigration; you know, fraudulent 
documents.
    Mr. Ellison. You have already indicated to Congressman 
Gutierrez that race is not a factor in determining whether to 
execute a warrant or take an action at a worksite. Is that 
right?
    Mr. Mead. Right. They are not predicated on race.
    Mr. Ellison. Okay. But let me ask you this: What is the 
race of the people of the last 12 months? Is there any 
predominant racial class that has been a target of the last ICE 
raids over the last 12 months?
    Mr. Mead. Well, the targets have been the businesses.
    Mr. Ellison. Yes. Well, the employees, too, right?
    Mr. Mead. The employees have been predominantly Hispanic.
    Mr. Ellison. Okay. Predominantly Hispanic. What percentage 
Hispanic? What percentage not?
    Mr. Mead. I don't have that off the top of my head.
    Mr. Ellison. More than 60 percent Hispanic?
    Mr. Mead. I don't have that percentage.
    Mr. Ellison. I know. But you must have some idea. I mean, 
you are a trained professional. You have been doing your job 
for many years. There is no way you would come to a 
Congressional hearing without some facts.
    So my question is: What approximate percentage are we 
talking about is Hispanic? Because, of course, you are a 
trained professional and you know your job. So I know that you 
know something.
    Mr. Mead. Well, you asked me what was the predominant----
    Mr. Ellison. Yes. You answered that question, and I thank 
you for that answer. And I thank you for that answer. And now I 
want to know what percentage of the people were Hispanic.
    Mr. Mead. I don't have a specific percentage.
    Mr. Ellison. About 50 percent? Okay. Predominant would be 
above 50.
    Mr. Mead. Yes, sir.
    Mr. Ellison. 75 percent?
    Mr. Mead. I don't have a specific----
    Mr. Ellison. So you don't know between 55 and 99; it could 
be anywhere in there. Is that what you are saying?
    Mr. Mead. I said predominantly Hispanic. That is my best 
answer without getting back to you.
    Mr. Ellison. Okay. So will you get back with the Committee 
on what the racial categorization the individuals who have been 
arrested in the ICE-related raids was in the last 12 months?
    Mr. Mead. Yes, sir.
    Mr. Ellison. That is a statistic we can count on you to 
receive?
    Mr. Mead. Yes, sir.
    Mr. Ellison. Okay. Now, why predominantly Hispanic? I mean, 
there are a lot of people in this country who may be here 
without proper documentation coming from every area of the 
globe. Why Hispanics?
    Mr. Mead. I think you would have to ask the employers why. 
That is the population they are employing. I don't have a 
better answer than that.
    Mr. Ellison. Well, you would agree with me that Hispanic 
people are just one of the many groups in America where there 
may be some immigration violations going on.
    I mean, if employers illegally employ people from Russia or 
other parts of the world, that would be as equally violative of 
the law. Wouldn't you agree?
    Mr. Mead. Absolutely.
    Mr. Ellison. So tell me about those folks. I mean, why do 
we have this predominant Hispanic bias?
    Mr. Mead. I am not suggesting we have a Hispanic bias. You 
asked me a question, and I answered it.
    Mr. Ellison. Yes. But I want to know why we haven't seen 
other ethic groups targeted.
    Mr. Mead. Again, we did not target any ethic groups. The 
cases revolve around the business and those that the business 
employs. We are not targeting the employees.
    Mr. Ellison. How did it happen to be such a nationality? 
How did it happen that these businesses happen to have a 
predominant number of Hispanic employees? Why aren't there 
other ethnic groups that are in the mix?
    Mr. Mead. I can't answer that. Again, you would have to 
talk to the business owners as to their hiring practices.
    Mr. Ellison. When an ICE raid is conducted and an 
individual is detained, what happens to that individual's 
children?
    Mr. Mead. As we were saying earlier, if there is a sole 
caregiver issue, we would release that individual to care for 
their child assuming there was no other criminal issues in 
their background.
    In cases where that exists, we work with them to arrange a 
relative or other person to care for their child.
    Mr. Ellison. Now, you know, we have a case in Minnesota, 
the Swift Meat Packing Plant. Are you familiar with that case?
    Mr. Mead. Yes, sir.
    Mr. Ellison. How many people were detained in that case?
    Mr. Mead. I don't have the exact number. I am sorry.
    Mr. Ellison. If I said 500, would you disagree with that 
number?
    Mr. Mead. That is possible.
    Mr. Ellison. Yes.
    Mr. Mead. As I said, I don't have the exact number.
    Mr. Ellison. Right. But would you agree that about 500 was 
the approximate--let me ask you this one last question.
    There was an American person, born in America, but was of 
Latino background. He was a radio host. And he said, I went to 
the meat packing plant to see what was happening, but the ICE 
officials demanded that I show them my papers because I was 
Latino.
    Are we sweeping up Latino-Americans in these raids, as 
these raids are being conducted, and presuming that they have 
to show papers on a presumptive basis based on their ethnicity?
    Mr. Mead. We do not sweep up any group of people. We 
conduct the necessary interviews to determine who may be here 
illegally, and those people are detained.
    Mr. Ellison. Well, that would surprise the people detained 
at the Swift Plant because they were all picked up in a summary 
fashion. It was all corralled in----
    Ms. Lofgren. Gentlemen, your time is expired.
    Mr. Ellison. Thank you.
    Ms. Lofgren. I would recognize, now, the gentlelady from 
California, Miss Waters.
    Ms. Waters. Thank you very much, Madam Chairwoman.
    First, I would like to thank you for the time and attention 
you have given this subject. A lot of complications and a lot 
to learn.
    I would just like to ask our guest today more about 
training. It appears to me that you have a responsibility here 
to not only understand what undocumented--where they are, where 
they are working, whether or not we have employers who are 
exploiting and are violating the law.
    But, you know, this is a very complicated subject, and I 
have several individual personnel who are specialized in 
dealing with immigration problems.
    And as I review these papers with them, I am always amazed 
at how complicated they can get.
    Tell me about the training that your officers have in doing 
this work.
    Mr. Mead. Our officers go through a very long basic 
training program.
    Ms. Waters. How long?
    Mr. Mead. It is over 18 weeks. They spend a great deal of 
time learning the Immigration and Naturalization Act. They 
spend a significant amount of time learning interviewing 
skills. They also spend time learning, you know, big law 
enforcement.
    Ms. Waters. Does the arresting officer have the 
responsibility of doing the interview, or are there special 
officers who do interviews once the undocumenteds have been 
detained?
    Mr. Mead. It really depends on the circumstance. In the 
case of worksite--for example, we were talking about earlier, 
there are initial interviews done at the place of business. 
Those people who are believed to be here illegally are taken to 
a process site where other officers might, you know, complete 
the interview and, as appropriate, booking process.
    So it really is case-specific. But all our officers are 
trained to do these interviews.
    Ms. Waters. All the officers are trained to do the 
interviews and understand the law and can make independent 
decisions about whether or not this individual should be 
deported?
    Mr. Mead. Well, the ultimate decision can be made by an 
immigration judge if the individual has a right and pursues 
that right to immigration hearing. So there are additional 
steps beyond the initial determination by the ICE officer.
    And when the immigration proceeding begins, the burden 
shifts back to the government to prove the removability of that 
individual.
    Ms. Waters. I see. Tell me about the sites where we hold 
these detainees. For example, they are located in every city, 
every state, every region? Where do you take--do they go to 
regular facilities? Local police stations? How does this work?
    Mr. Mead. There is a combination of facilities, 
approximately 400 in total. They are not in every city, but 
they are spread throughout the United States.
    There are some that, a small number, eight, that ICE 
actually owns and operates themselves.
    There is a small number that are privately-owned and 
operated on behalf of ICE.
    Ms. Waters. Privately-owned?
    Mr. Mead. Yes.
    Ms. Waters. How do you own a private detention center?
    Mr. Mead. There are many private detention--not only 
detention, but correctional facilities--in the United States. 
There are many private jails, a number of private prisons, that 
state and local governments contract with as well as the 
Federal Government.
    Ms. Waters. Now, I suppose you are right. There has been 
the privatization of our prisons. I didn't know about the 
detainee centers.
    Give me an example of one of our contractors. What do you 
have in California?
    Mr. Mead. There is a facility in San Diego that has 
operated, I believe, it is owned by the County of San Diego, 
but it is operated by the Correctional Corporation of America. 
That would be one example off the top of my head.
    Ms. Waters. Correctional Corporation of America is a 
private entity?
    Mr. Mead. Yes, ma'am.
    Ms. Waters. And they use a local facility?
    Mr. Mead. I believe it is owned by the county and leased to 
them. There is some arrangement between the two.
    Ms. Waters. So you could have a raid some miles from that 
facility. How do you get the detainees? Do you just transport 
them to the nearest facility? Or how does that work?
    Mr. Mead. Yes, ma'am. Wherever the site is, we try and move 
them to the closest detention facility.
    Ms. Waters. And then they are held there until the official 
proceeding takes place?
    Mr. Mead. If they are going--yes, if they are going to an 
immigration proceeding, yes.
    Ms. Waters. And you could have someone there who is 
illegal, undocumented, maybe been in the country for 35 years, 
and they could be immediately deported?
    Mr. Mead. It just depends on the circumstance. Everybody's 
case is different. The average length of stay in detention for 
us is approximately 40 days.
    Ms. Waters. Just for example, if someone was picked up at a 
worksite, determined by the officers probably to be illegal, 
taken to the center, detained for 20 or 30 days, is there a 
process by which their families are contacted or they have the 
ability to connect with their families and let them know what 
is going on?
    In all of that, do you have a host system that works that 
way?
    Mr. Mead. Yes. Particularly in the worksite, when they are 
taken to the initial processing prior to going to a detention 
facility, we provide them free phones. We provide them the 
opportunity to call relatives. If they have an attorney, they 
can call them. If they don't have an attorney, we provide them 
the names of free legal services. They can call their 
consulate. And that is all done before they ever go to 
detention.
    Once they get to detention, they have the same access to 
free telephones there. And, again, we provide them access to 
the numbers of law firms that provide free legal services, to 
consular officials. We provide them the phone number of the 
Inspector General if they feel----
    Ms. Waters. Thank you. I think my time is up. Could you 
tell me about how many people we have in this country who are 
being detained at this period, right now?
    Mr. Mead. We have approximately 30,000 people in custody 
today.
    Ms. Waters. 30,000?
    Mr. Mead. Yes, ma'am.
    Ms. Waters. In various facilities?
    Mr. Mead. Yes, ma'am.
    Ms. Waters. Some up to 40 days?
    Mr. Mead. Yes.
    Ms. Waters. We feed and clothe and give medical care to 
them?
    Mr. Mead. Yes.
    Ms. Lofgren. The gentlelady from Texas, Miss Jackson Lee, 
is recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Madam Chairperson.
    And let me also thank the witness and, frankly, thank your 
service for its service.
    And certainly, I believe you understand the oversight 
responsibilities of Congress. And to do that, we must be 
pointed and provocative and probative on how our government is 
working.
    Now, part of the fault lies in the lack of a comprehensive 
immigration system. And the genesis, I believe, of a lot of the 
work that you are now doing has come in a misguided way, not by 
way of, necessarily, your actions of following orders, but the 
whole surge or onslaught of the necessity of being oppressive 
and being aggressive as it relates to enforcement when we have 
no balanced comprehensive system that will go along with it.
    Because we have always acknowledged that we are a Nation of 
law, but we are also a Nation of immigrants. And so when the 
debate began, I remember very distinctly, it was a cry-out for 
internal enforcement, which, when it trickled down to officers 
on the ground, I know there is an extensive burden of the 
numbers, of the cases, of the number of arrests. That generated 
into these raids that occurred in places such as the Carolinas, 
North and South Carolina, that occurred with the Swift Meat 
Packing entity.
    Though they may have been law enforcement necessities or 
orders, I, frankly, put it squarely at the feet of the previous 
Congress and the dilatory actions of this Administration in 
failing to put forward a comprehensive immigration reform 
package.
    For that reason, you now have a series of incidents that 
show that the enforcement has now come down heavy on citizens, 
legitimate, hard-working citizens. And so I raise these 
questions, and we will be hearing from a number of individuals. 
And I would like to understand.
    Do you recall the Swift, if you will, raid, and can you 
tell me why in the Swift Meat Packing raid, you put--or someone 
has given me the information that you asked or your officers 
asked all the brown people to stand on one side and all the 
other people to stand on another side? Is that accurate? Or do 
you have a report on that?
    Mr. Mead. I am not aware of a report on that. I am sorry.
    Ms. Jackson Lee. Can you investigate that one particular 
question that I have just asked you?
    Mr. Mead. Yes.
    Ms. Jackson Lee. I would like to know how your ICE officers 
went in. Did they ask for all the brown people on one side and 
all the other people on the other side?
    The other question I want to know is do you have training 
to explain to officers that immigrants come in all racial 
backgrounds or country backgrounds?
    Mr. Mead. Yes. We do provide training on cultural 
differences, cultural awareness, yes.
    Ms. Jackson Lee. Do they understand that there are European 
undocumented individuals that may not be brown in the United 
States?
    Mr. Mead. Yes, ma'am.
    Ms. Jackson Lee. Are they trained enough to be able to 
determine that person's status, or are they looking only for 
color?
    Mr. Mead. We deport people based on their legal status and 
their right to be here, not their color.
    Ms. Jackson Lee. So you wouldn't go into a meat packing or 
a Home Depot store--forgive me, Home Depot. I am just using 
various examples. But in any event, to go into a store and 
round up all the brown people?
    Mr. Mead. No, ma'am. We do not----
    Ms. Jackson Lee. What about all the people with turbans?
    Mr. Mead. We----
    Ms. Jackson Lee. Headgear on their head?
    Mr. Mead. We do not racially profile.
    Ms. Jackson Lee. Okay. I would like to get a direct 
response back in writing on the training that you do as it 
relates to people of different ethnic backgrounds.
    Let me, quickly, just say you have given increased funding. 
I would like to know why you are turning your attention to U.S. 
citizens, and how do you explain detaining U.S. citizens?
    And lastly, what remedy do you use to provide a remedy to 
wrongly detained U.S. citizens?
    And I want to bring to your attention--we will hear from 
them shortly--Justine Mancha, Michael Graves, and Pedro Guzman, 
who have their own stories to tell about being detained 
unfairly.
    Mr. Mead. The short answer is we do not knowingly or 
willfully detain or remove U.S. citizens. And since the 
inception of ICE, we can only find one case where a U.S. 
citizen was removed from the country, and that is Mr. Guzman.
    And of the more than 1 million people that passed through 
our custody in the past 4 years, he is the only we can find 
that was a U.S. citizen that was removed. And we believe that 
the circumstances there explain that it was definitely not 
willful or intentional on our part.
    Ms. Jackson Lee. Well, quickly, you went into Miss Mancha's 
house, and this young lady is a U.S. citizen. Her mother was 
not home. You didn't have a warrant, and you started 
questioning that individual who is a U.S. citizen.
    Was there any reason for busting into a U.S. citizen's 
house and questioning a minor?
    Mr. Mead. I wish I could talk to you about that case, but 
it is under litigation, and I can't talk to you about it.
    Ms. Jackson Lee. All right. Well, I think these examples 
are disturbing, and I just want to make sure that if I didn't 
hear it correctly--please give me, in writing, the remedy that 
you are providing those wrongly-detained U.S. citizens. And I 
would appreciate that.
    And I believe my time is expired.
    Ms. Lofgren. The gentlelady's time has expired.
    We have been called for a series of votes. What I would 
like to do, Mr. Mead, is to thank you for your testimony.
    Note that without objection, Members of the Subcommittee 
will have 5 legislative days to submit questions to you which 
we will forward. And we ask that you answer these questions as 
promptly as you can, and we will actually suggest a deadline 
for the answers as we forward them to you.
    We will now excuse you, and I would like to introduce the 
panel that will be next. And then we will go, if the Ranking 
Member agrees, and vote and come back.
    I will call over to the staff so that they can give an 
announcement and an estimate of time so people are not 
prisoners here in this hearing room.
    There is a cafeteria downstairs. You can get a cup of 
coffee because I think it is several votes.
    If you could vacate your spot, Mr. Mead, we will ask the 
other panel to come forward to be introduced.
    First, I am pleased to welcome James J. Brosnahan, one of 
the Nation's most respected and recognized trial lawyers with 
expertise in both civil and criminal trial work. He was 
inducted into the State Bar of California's ``Trial Lawyers 
Hall of Fame'' in April 1996 and was awarded the ``Samuel E. 
Gates Award'' by the American College of Trial Lawyers in 
October 2000.
    Mr. Brosnahan has served as special counsel to the 
California Legislature's Joint Subcommittee on Crude Oil 
Pricing, the lawyers' representative to the Ninth Circuit 
Judicial Conference and Chairman of the Delegation, and 
president of the Bar Association of San Francisco.
    Next, I would like to introduce Marie Justine Mancha. 
Justine is a junior and an honor roll student at Tattnall 
County High School in Reidsville, Georgia. Justine was born in 
Texas and is the first-named plaintiff in the lawsuit Mancha v. 
ICE.
    In her spare time, she enjoys participating in the Future 
Farmers of America. And her mom, Tina, is here with her today. 
We welcome her mom.
    Our next witness is Michael Graves, born and raised in 
Waterloo, Iowa. Michael Graves works for Swift Company Plant in 
Marshalltown, Iowa for 22 years in production on the kill 
floor. He is a member of Local 1149 of the United Food and 
Commercial Workers International Union and is currently a 
business agent for the Union.
    He is the proud father of three children; two sons and a 
daughter. On December 12, 2006, he, along with thousand of 
other Swift workers, was detained during the ICE raid on six 
Swift plants.
    Next on our witness panel, we have Kara Hartzler. Kara 
Hartzler is an attorney at the Florence Immigrant and Refugee 
Rights Project in Florence, Arizona. She first became involved 
in immigration issues at an Asylum Clinic on the U.S.-Mexican 
border in 1994 and has, since then, worked with migrant farm 
workers, the United Nations High Commissioner for Refugees, 
indigenous communities in Chiapas, Mexico, and the Human Rights 
Delegation to Iraq and El Salvador.
    Miss Hartzler currently works as a criminal immigration 
consultant, advising state and Federal defense attorneys on the 
immigration consequences of criminal convictions.
    Our next witness is Rachel E. Rosenbloom. Rachel Rosenbloom 
is a human rights fellow at the Center for Human Rights and 
International Justice at Boston College and supervising 
attorney at the Center's Post-deportation Human Rights Project.
    She is a graduate of New York University School of Law 
where she was a Root-Tilden-Kern Public Interest Scholar. She 
holds a bachelors degree in history from Columbia University 
and a masters in history from the University of California 
Berkeley where she was a Regent Scholar and Human Rights 
Fellow.
    And our final witness is Dan Stein. Dan Stein is the 
executive director of the Federation for American Immigration 
Reform, otherwise known as FAIR, a Washington-based nonprofit 
organization founded in 1979.
    He has over 15 years experience in the field of immigration 
law and law reform including a prior position as executive 
director of the Immigration Reform Law Institute. Mr. Stein is 
an attorney licensed in Washington, D.C. and Maryland.
    He has a degree in economics from Indiana University and a 
law degree from the Columbus School of Law. He is a native of 
Washington, DC and has previously appeared before Congress on 
behalf of FAIR.
    Now, at this point, we are going to recess our hearing so 
that we can go cast our votes on the floor of the House. And we 
will call over to the staff and will give you a little 
announcement and an estimate of when we will be able to 
reconvene as soon as we find that out.
    So this hearing is in recess.
    [Recess.]
    Ms. Lofgren. The Subcommittee is back in session. As I 
mentioned to the witnesses when I walked in, welcome to 
Congress' world. These disruptions do occur when we have votes 
on the floor. But we are eager to hear your testimony.
    This hearing is being webcast, so it is not just the people 
in this room who will be seeing the testimony.
    Your full statements will be made part of the official 
record of this hearing, and we do ask that your testimony be 
summarized in about 5 minutes to that we can have time for 
questions.
    We are starting with Mr. Brosnahan and working that way--is 
that correct, staff? All right.
    Mr. Brosnahan, if you would begin. Your microphone needs to 
be on. Thank you very much.

  TESTIMONY OF JAMES J. BROSNAHAN, SENIOR PARTNER, MORRISON & 
                         FOERSTER, LLP

    Mr. Brosnahan. Thank you so much, Madam Chairwoman Lofgren 
and Ranking Member King.
    I appreciate very much the opportunity to tell you what 
happened to Peter Guzman today, who I represent with the 
Southern California ACLU.
    Very simply, on May 11, 2007, he, being a U.S. citizen born 
in the United States, living in Lancaster with his fairly-large 
family, having gone to lower California schools, having worked 
as a cement finisher, and having developed, over the years, 
only to the level of about a second grade reading ability.
    He is a person of limited mental capacity. He was arrested 
in connection with a sort of odd trespass, and he was given 120 
days under the sheriff's aegis and a very low-level clerk as 
part of a program which is instituted by ICE.
    They interviewed him and asked him if he was a citizen, and 
he said he was. And she said, But your parents were born in 
Mexico, you can't be a citizen, and sent him back to a holding 
cell and then brought him back again.
    Now, that happened, and it happened as part of a program 
that I understand is in 400 local police jurisdictions.
    On May 11, 2007, he was sent to ICE, who had in their 
records, knowledge that he was a U.S. citizen. The sheriff's 
office knew he was a U.S. citizen. This they took his driver's 
license when he was arrested.
    They had it in their record. They had it in their 
computers, but they didn't look, evidently, so they say, I 
guess.
    And they put him on a bus with $3. They took him to 
Tijuana. They opened the door, and they put him out. No family, 
no job, no place to go, nobody to support him, nothing, zero. 
And he was a U.S. citizen.
    Now, I heard Mr. Mead, if I may, come here today, and I 
heard that he has a degree in management. And I asked myself as 
a person, Madam Chairwoman, that doesn't come back here very 
often, where is it in America that he could manage anything and 
he would be allowed to do it.
    Where is it that the boss would be the Chairperson and the 
Ranking Member would tolerate answers about notorious newspaper 
events that he knows nothing about? It is not in corporate 
America, which I do represent; not in educational institutions. 
It is not anywhere.
    So, yes, Peter was put out there. And what happened to him? 
For 3 months, he tried to get back into his country where he 
was born and where he was allowed and entitled to come.
    He had to eat out of garbage cans. He had to wash himself 
in the Tijuana River. And his mother, who we also represent, 
went to the morgues of Tijuana.
    Sometimes, I think it must be hard, and I mean this 
sincerely, to sit here and talk about policy and not visualize 
a woman, a mother, in the morgues of Tijuana, looking for her 
son because the government has put him off a bus.
    Did they call their house in Lancaster? They did not.
    Did they check their records? They did not.
    Did they ask themselves any questions? They did not because 
they have the power.
    And those who have given them the power have oversight, and 
that is this Committee. What should you do based on my view?
    I am a layperson here. My grandfather was in the 
Immigration Service. And I have had cases involving them, and I 
know what they do well, and I know what they do wrong.
    They separate families. That is wrong.
    I don't know what district any congressperson can go and 
say, We have got a policy; we are going to go and separate 
families. I don't know where you can go and do that.
    But here is what I think is the issue.
    First of all, if there is any question about it, there 
should be a right to a lawyer. I heard Mr. Mead say that they 
supply that and they suggest it and all that.
    That is news to an awful lot of Americans. That is big 
news.
    Yes. They should have a lawyer, certainly. The 400 local 
jurisdictions--I didn't hear a word today--I didn't even hear a 
question about are they trained. Are they trained in the 
sheriff's office in Los Angeles to do this work?
    It is not fun work. The head sheriff is not going to do it. 
It is low-level stuff. And mistakes are being made; you are 
going to hear about them today. And it was made in this case.
    So the oversight has to demand answers to these questions. 
And I would suggest that the idea of using the local law 
enforcement is not a good idea. If you are going to have 
quality education, it would have to be with the ICE to do that.
    So I applaud the increased oversight by this Committee. It 
is much-needed, and I think decent people in the United States 
want you to do it and hope that you do do it.
    Thank you so much for allowing me to speak.
    [The prepared statement of Mr. Brosnahan follows:]
     Prepared Statement of James J. Brosnahan and Mark D. Rosenbaum
    The government--whether it be federal or local--lacks any 
discretion to deport citizens of the Unites States. Citizenship is the 
constitutional birthright of every individual born within our national 
borders, and surely the first obligation of government is to preserve 
at any cost the liberty and security of its citizens to remain within 
their homeland.
    On May 11, 2007, immigration officials and agents of the Los 
Angeles District of the United States Immigration and Customs 
Enforcement (``ICE'') Division, under the Department of Homeland 
Security, in concert with officials of the Los Angeles County Sheriff's 
Department, unlawfully deported Peter Guzman, a 30-year-old United 
States Citizen born and raised in Los Angeles County, to Tijuana, 
Mexico, a city with which he was utterly unfamiliar, having been there 
only once, at the age of 14, on a brief trip with his mother. Peter 
Guzman knew no one in Mexico and had not been there for over a decade. 
At the time of his deportation, Mr. Guzman had no resources by which he 
could purchase food or shelter, and only the clothes he was wearing 
when ICE officials placed him on the bus to Tijuana. His family in 
nearby Lancaster, California was not notified of his deportation, 
although officers of the Sheriff's Department had within just weeks 
prior to the deportation contacted his brothers on a number of 
occasions to discuss arrangements for his imminent release from the 
County Jail system. Mr. Guzman did not have a cell phone or other means 
to contact his family to bring him back from Mexico.
    As result of his illegal deportation, Mr. Guzman spent nearly three 
months wandering on foot in Mexico between Tijuana and Calexico. He 
frequently ate out of garbage cans and for the most part slept outside 
without adequate shelter or warmth, bathing in rivers. Mr. Guzman lived 
in constant fear. That he survived is a matter only of his will to live 
and fortuity. His suffering from this nightmarish ordeal continues to 
this day.
    Mr. Guzman is cognitively impaired and is unable to read at more 
than a second grade level. At the time of the deportation, he was under 
the care and supervision of his mother. He is unable to remember his 
home telephone number or that of anyone else in his life.
    The illegal deportation of Peter Guzman was not an innocent mistake 
by ICE officials or agents, but rather the predictable consequence of 
policies, practices and procedures which rely upon racial and ethnic 
stereotypes to presuppose undocumented status and lack even rudimentary 
safeguards against erroneous determinations. Mr. Guzman told personnel 
processing him for deportation that he was a United States citizen, and 
Los Angeles County Sheriff's Department records, compiled at the time 
of his arrest and booking, and from an earlier incarceration, and 
readily available to ICE, confirmed his assertion. ICE processed Mr. 
Guzman for voluntary departure, although official law enforcement 
records also available to ICE made clear that he would not have been 
eligible whether or not he had been illegally present within the United 
States. In addition, medical records of treatment of Mr. Guzman while 
incarcerated at the Men's Central Jail ought to have immediately 
alerted ICE personnel that Mr. Guzman should not have been subjected to 
administrative processing without at minimum the presence of family 
members or counsel. These records unquestionably demonstrated that Mr. 
Guzman was not capable of exercising a voluntary, knowing and 
intelligent waiver of his rights at the time of his deportation, or, 
indeed, at any time thereafter.
    The circumstances that resulted in Mr. Guzman's illegal deportation 
originated in a January 25, 2005 Memorandum of Understanding (``MOU'') 
between the Department of Homeland Security and the Los Angeles County 
Board of Supervisors creating a pilot project by which Sheriff's 
Department personnel interview and process presumed or suspected 
foreign-born inmates confined within the Los Angeles County jail system 
to determine the inmates' immigration status and whether, in their 
judgment, the inmates are deportable. The personnel within the 
Sheriff's Department assigned this responsibility are not deputies, but 
are described as custody assistants (``CA's''). These CA's have 
received only brief training by ICE, are not versed in immigration law 
and yet pursuant to the MOU, have been granted federal authority to 
obtain consents to voluntary departures and to make referrals to ICE 
for deportations. For all intents and purposes, ICE exercises no 
meaningful supervision or monitoring of immigration processing by local 
CA's within Los Angeles County.
                               background
    Peter Guzman was born on September 25, 1977 in Los Angeles, 
California. He is the second of seven children. Mr. Guzman grew up in 
Lancaster, California. He attended elementary, middle and high schools 
in Lancaster.
    On March 31, 2007, Mr. Guzman was arrested for the misdemeanor 
offense of Trespassing upon Land Under Cultivation in violation of 
California Penal Code Sec. 602. He pled guilty to misdemeanor vandalism 
and was sentenced on April 19, 2007. The judge suspended imposition of 
the sentence and placed Mr. Guzman on three years probation with a 
condition that he serve 120 days in County Jail, of which he received 
credit for 30 days of combined good time and time served.
    Some time after his sentencing, Mr. Guzman was transferred to the 
Men's Central Jail in downtown Los Angeles and was processed thereto at 
the Inmate Reception Center. In response to a question relating to his 
citizenship, he stated that he was born in California. Department 
personnel recorded his response in official records relating to his 
arrest and detention.
    During the course of the next weeks, Sheriff's Department personnel 
contacted Mr. Guzman's family on at least two occasions, at one point 
seeking to verify information for purposes of arranging an early 
release to his residence. At no point did these personnel or ICE agents 
question whether Mr. Guzman was a United States citizen or attempt to 
verify citizenship.
    Other law enforcement records available also recorded that Mr. 
Guzman was a United States citizen. By reason of an earlier conviction 
and incarceration, there ought to have existed serious question as to 
whether Mr. Guzman would have been eligible for voluntary departure 
even if he had been illegally within the United States.
    County medical records relating to Mr. Guzman disclose that on 
April 7, 2007, just one week after his arrest, he was prescribed 5mg of 
Zyprexa to be taken daily. Their documents state:

        He has been in jail for more than one week. He was at LCMC for 
        AMS and he is sent back with Zyprexa 5mg daily for voices. He 
        told the ER doctor at LCMC that he hears voices of and on, 
        telling him `bad things' but there is no other specifics of 
        `voices' documented or asked. Further voices increased when he 
        came to jail.
                     deportation and disappearance
    On or about May 10, 2007, a Custody Assistant processed Mr. Guzman 
and obtained a signature waiving his legal rights and agreeing to be 
voluntarily deported to Mexico. ICE personnel did not undertake any 
reasonable inquiry into the circumstances of the processing or as to 
why Mr. Guzman was then questioned about citizenship. Nor did ICE 
inquire as to Mr. Guzman's eligibility for voluntary departure or as to 
why law enforcement records consistently stated that he had been born 
in California.
    As result, Mr. Guzman was placed on a bus to Tijuana and illegally 
deported to Mexico.
    On May 11, 2007, Mr. Guzman, utilizing a borrowed cell phone and a 
slip of paper with his brother's telephone number, called the residence 
of his brother and spoke to his sister-in-law, Victoria Chabes. The 
call lasted no more than a minute and the slip of paper was lost 
shortly thereafter. Mr. Guzman stated that he had been placed on a bus 
at the jail and that he did not have money or clothes with him.
    Ms. Chabes called at once Mr. Guzman's mother, Maria Carbajal, and 
relayed the conversation. Fearing for her son's safety and well being, 
Ms. Carbajal returned to her home, obtained Mr. Guzman's birth 
certificate and drove with one of her sons to Tijuana to begin to 
search for him.
    Over the next three months, Ms. Carbajal, Mr. Guzman's brothers, 
his sister-in-law, and other family members searched in Tijuana and 
adjoining cities for Mr. Guzman. Ms. Carbajal often walked through the 
city. She and family members regularly searched morgues, hospitals, 
jails, shelters and along rivers and alleys. Ms. Carbajal arranged to 
temporarily leave her job as a cook at Jack in the Box to devote 
virtually all of her time to the efforts to find her son. Because the 
family had very limited resources, Ms. Carbajal stayed at times in a 
room no larger than a closet in a banana warehouse where she slept on 
the floor. She cooked in exchange for the room.
    A usual day would begin at 6:00 a.m. and not finish until late at 
night. Ms. Carbajal and family members circulated hundreds of flyers 
with a picture of Mr. Guzman and information about him.
    Mr. Guzman wandered on foot over hundreds of miles for eighty-nine 
days between Tijuana and Calexico. He physically survived by begging 
and picking food from garbage. He bathed in the Tijuana River and 
typically slept outside.
    Until a habeas action was filed in federal court, and worldwide 
attention was brought to the case, the United States government offered 
no assistance to Ms. Carbajal and her family despite repeated pleas for 
help. When prior to the filing of the habeas, counsel for the family 
informed a Los Angeles ICE official of the circumstances of the 
deportation, and faxed a copy of the birth certificate, the official 
stated that upon proof of the validity of the certificate, ICE would 
amend its records to correctly reflect Mr. Guzman's United States 
citizenship, but would take no additional steps to find and return him 
to the United States.
    Upon his return to the United States, Mr. Guzman was unable to 
speak and physically incapable of stopping from shivering. He is 
currently receiving psychological treatment as result of the illegal 
deportation. Ms. Carbajal stated shortly after his return that ``he 
left complete but they took half my son.''

    Ms. Lofgren. Thank you very much, Mr. Brosnahan.
    Now, we have our honor student, Marie Justine Mancha.
    Justine, if you would give your testimony now, we are eager 
to hear it.

          TESTIMONY OF MARIE JUSTEEN MANCHA, STUDENT, 
                   TATTNAL COUNTY HIGH SCHOOL

    Ms. Mancha. Hi. My name is Marie Justine Mancha. I go by 
Justine. I am 17 years old, and I am a junior at Tattnall 
County High School in Reidsville, Georgia.
    I am originally from Texas where I was born, but moved to 
Reidsville with my family when I was about 7. So I consider 
Reidsville my hometown.
    I have grown up in Reidsville, gone to school, and hanging 
out with my friends. Everyone in my family was born in the 
United States. We are all known as Mexican-Americans.
    Never did I expect my family or me to go through this 
terrible experience we all went through in September of 2006.
    It all started because I was running late and Mom went 
uptown to run an errand while I got dressed for school.
    I was home alone. I was in my bedroom when I first heard 
the noises outside. It sounded like car doors slamming. So I 
looked outside my window but didn't see anyone.
    So then I went to the living room, made sure the door was 
unlocked for Mom but also made sure it was closed because, if 
not, Mom would pitch a fit.
    So I walked back in my room and started watching TV while I 
waited. Not too long after that, I heard male voices coming 
from inside of my house. I was so scared. I had no idea what 
was going on.
    I got up and started walking down the hallway toward the 
living room and I started to hear the words ``police'' 
``illegal.'' It seems as if those words still ring in my head 
today giving me that fear of them busting in my home.
    I walked around the corner from the hallway and saw a tall 
man reach toward his gun and look straight at me. I saw a group 
of agents standing in the living room blocking the front door. 
My heart just dropped.
    I didn't know what was about to happen. It just about 
brings tears to my eyes to think what if my little sister was 
there. What if she had seen this or felt what I felt? I didn't 
know what to do.
    When the tall man reached for his gun, I just stood there 
feeling so scared. I could have busted out into tears, but I 
had to be strong and hold it in. I looked around, and there 
were about four or five men in my house and more coming up the 
stairs.
    They began asking questions. I started to feel closed in 
like I couldn't say no or not answer them because they were 
blocking the front door. They were asking me if there was 
anyone else in the house, and if my mom had worked at Cotter, 
and why she had quit.
    Also, they asked if my mom was a Mexican and if she had her 
papers or a green card. I felt so awful and low that they were 
asking me all these question because I am Mexican.
    At the time, I didn't want to be Mexican because of what we 
go through and how people look at us different and treat us and 
assume we are all illegal.
    But just going through all this made me see how strong 
Mexicans can be, and I wouldn't change that for anything. I am 
proud to be Mexican.
    I answered all their questions, telling them my mom didn't 
need a green card because she was born in Florida. Finally, I 
got the courage to ask them why they were in my home.
    One of the agents just said they were looking for illegals. 
They began to walk outside and I heard them telling each other 
they should all go to the gas station because they would find a 
lot of Mexicans there.
    I asked if they were leaving, and they said they would be 
in the area looking for the rest of them. I walked outside and 
they were everywhere. Luckily, they all got in their cars and 
started to drive off.
    About that time, Momma pulled in, and I ran to her and 
started crying telling her what had just happened. I was so 
scared. I still am. I carry that fear with me every day 
wondering when they will come back.
    Thank you.
    [The prepared statement of Ms. Mancha follows:]
               Prepared Statement of Marie Justeen Mancha
    Hi, my name is Marie Justeen Mancha, but I go by Justeen. I'm 17 
years old and am a Junior at Tattnall County High school in Reidsville, 
Georgia. I'm originally from Texas where I was born, but moved to 
Reidsville with my family when I was about seven years old. So, I 
consider Reidsville my hometown. I've grown up in Reidsville going to 
school and hanging out with my friends. Everyone in my family was born 
in the United States. We're known as ``Mexican-Americans.'' Never did I 
expect my family or me to go through the terrible experience we all 
went through in September of 2006.
    It all started because I was running late, and Momma went up town 
to run an errand while I got dressed for school. I was home alone. I 
was in my bedroom when I first heard the noises outside. It sounded 
like car door slamming, so I looked outside my window but didn't see 
anyone. So then I went to the living room and made sure the door was 
unlocked for momma, but also made sure it was closed because if not 
Momma would pitch a fit. So I walked back in my room and started to 
watch T.V. while I waited. Not too long after that I heard male voices 
coming from inside my house. I was so scared. I had no idea what was 
going on.
    I got up and started walking down the hallway towards the living 
room and I started to hear the words, ``Police! Illegals!'' It seems as 
if those words still ring in my head today giving me that fear of them 
busting into my home. I walked around the corner from the hallway and 
saw a tall man reach toward his gun and look straight at me. I saw a 
group of law enforcement agents standing in the living room blocking 
the front door. My heart just dropped. I didn't know what was about to 
happen. It just about brings tears to my eyes to think, ``what if my 
little sister was there?'' ``What if she had seen this, or felt what I 
felt?'' I didn't know what to do. When the tall man reached for his gun 
I just stood there feeling so scared. I could've busted out in tears, 
but I had to be strong and hold it in. I looked around and there were 
about four or five men in my house and more coming up the stairs.
    They began to ask me questions. I started to feel closed in, like I 
couldn't say no or not answer them because they were blocking the front 
door. They were asking me if there was anyone else in the house and if 
my momma had worked at Crider Poultry and why she had quit. Also, they 
asked me if my mom was a Mexican and if she had her papers or a green 
card. I felt so awful and low that they were asking me all these 
questions because I'm Mexican. At times, I didn't want to be Mexican 
because of what we go through and how people look at us different and 
treat us and assume we're all illegal. But, just going through all this 
made me see how strong Mexicans can be and I wouldn't change that for 
anything. I'm proud to be Mexican.
    I answered all their questions--telling them my momma didn't need a 
green card--that she was born in Florida. Finally, I got the courage to 
ask them why they were in my home. One of the agents just said that 
they were looking for illegals. They began to walk outside and I heard 
them telling each other that they should all go to the gas station 
because they'd find a lot of Mexicans there. I asked if they were 
leaving and they said they'd be in the area looking for the rest of 
``them.'' I walked outside and they were everywhere. Luckily, they all 
got in their cars and started to drive off.
    About that time momma pulled in and I ran to her and started 
crying--telling her what just happened. I was so scared. I still am. I 
carry that fear with me everyday--wondering when they'll come back.
    I have also attached a copy of the complaint in the lawsuit in 
which I am a plaintiff, which I would like to be considered as part of 
the record before this Subcommittee.

    Ms. Lofgren. Thank you very much. You did a wonderful job 
of testifying.
    Mr. Graves?

TESTIMONY OF MICHAEL GRAVES, MEMBER UNITED FOOD AND COMMERICAL 
                    WORKERS UNION LOCAL 1149

    Mr. Graves. Thank you, Madam Chairwoman. Thank you, Members 
of the Subcommittee for holding this important hearing.
    I am here today representing 1.3 million members of the 
UFCW Local 1149 and thousands of other Americans who have been 
treated and abused by our government, outraged by the 
institutional immigration sweep at worksites across the 
country.
    I will never forget on December 12th when heavily-armed ICE 
agents surrounded the Swift Meat Packing Plant at the Swift 
Company in Marshalltown. The plant where I worked----
    Ms. Lofgren. Could you move the microphone a little bit 
closer to you so we can hear all of your--thank you.
    Mr. Graves. On that day, my civil rights was violated and 
my faith in this country was taken.
    At 6 o'clock that morning, our supervisor came to our 
floor. I was on the kill floor. He came around and told 
everybody that they have to report to the cafeteria.
    They didn't give us a reason why we had to report to the 
cafeteria, just that we had to report to the cafeteria.
    So we proceeded to go out to the cafeteria to the main 
floor. Me and two other Hispanics, co-workers, started going to 
the cafeteria at our normal route.
    We met up with ICE agents. He came to us and asked us where 
we was going. We said we was reporting to the cafeteria as we 
were supposed to. He came to us and said, Well, you are not 
going the right direction. I said, ``This is our normal 
route.''
    So anyway, he came to us and asked did we have any weapons 
on us--we wear white t-shirts, white pants, no long sleeves or 
nothing; no weapons on us. He still searched us and told us to 
get up against the wall.
    He asked us if we kept them in our locker. He put us 
against the wall and handcuffed us. He took us to our locker in 
the men's locker room and--the two down. My locker was down 
there on the other side of the aisle.
    So one of the ICE agents took me to my locker, still in 
handcuffs, and asked me about where I was living. And I told 
him I lived in Waterloo, Iowa. He asked me again where I lived. 
We are here in Waterloo, Iowa because it is a good place to 
work, and I have been here for 21 years--so many years. So I 
didn't want to change my job.
    So he asked me for my combination. He asked me to open my 
locker. He opened up my locker and asked me if I had any 
weapons inside. I said, no we don't carry weapons to work. So 
he searched my locker anyway.
    He asked for my ID. He got my identification, looked at it, 
and asked me questions about my identification and asked me 
about my parents. And I said they lived in Mississippi.
    He asked me do I know my route to Mississippi. And I said, 
well yeah, but I don't know the exact route in detail.
    So he kind of looked at me and told me to sit down. So he 
took my identification to another agent that was down from the 
aisle where I was sitting and told me to sit down. And he 
looked at my identification and the other agent did, too. They 
looked at it, said something to each other, and started 
laughing.
    So they took my identification with them, and I was still 
sitting there waiting for them to come back. When they did come 
back, he told me to go to the cafeteria where everybody was 
still sitting there waiting.
    The cafeteria holds about 50 people, but they crammed about 
150 people in the cafeteria. So they blocked off all the food 
supply, all the water in the cafeteria. They unhandcuffed me at 
the entrance of the cafeteria and told me to go in there and 
wait----
    We was in there for about, at least, 3 or 4 hours in the 
cafeteria with no food, no water, no means of telephone to call 
our lawyers or--they did not give us a chance to get our union 
rep there to talk to us about the situation either.
    So we was there with no food, no water, nothing.
    When they came, they got us by tens of people and then they 
took us to go to another area to process. After that, we were 
processed. We went to another area outside the plant and walked 
about 400 yards to another building where 400 people were in 
there where they still cut off all our food supplies, no water, 
no phones, no nothing.
    We were there for about 8 hours with no means of getting 
outside contact, no food or water till the whole process was 
over and done with.
    Myself, you know, it is just horrible how they treated us. 
They herded us like animals going to the other building--agents 
denied them to call their loved ones and let them know what was 
going on.
    I am not just the only one. I am here with a friend of 
mine, another friend from Brent Island. He is one of the 
persons that was violated at his plant, also. So I mean, it is 
not me at my plant; it is another plant that they had 
victimized, also.
    At that time, I felt that the raid was unjust. It didn't do 
the proper procedure when they did. I mean, they checked who I 
was. They found out who was illegal and who wasn't illegal, but 
they still detained us there for 8 hours with no food and 
water.
    And after that, after 8 hours, they sent us home. After 
that, everything was over and done with.
    Again, thank you.
    [The prepared statement of Mr. Graves follows:]
                  Prepared Statement of Michael Graves
    Thank you Chairwoman Lofgren, Ranking Member King, and Members of 
the Subcommittee for holding this hearing and for the opportunity to 
testify. I am here today representing the 1.3 million members of the 
United Food and Commercial Workers International Union (UFCW), my Local 
1149 in Marshalltown, Iowa, as well as the tens of thousands of 
American citizens who have been abused by our government's outrageous 
and unconstitutional immigration sweeps at worksites and homes across 
this country. It is indeed a privilege to be here in Washington to 
testify today and to tell my story.
    My name is Mike Graves, and I am from Waterloo, Iowa. For the last 
21 years, I have worked at the Swift and Company plant located in 
Marshalltown, Iowa. During those years, I have worked on the kill floor 
of the plant. I am also active in the union.
    In all 21 years on the job, there is one day I will never forget. 
On December 12, 2006, hundreds of heavily armed ICE agents stormed six 
meat packing plants across America's heartland. The Marshalltown plant 
where I work was one of those targeted and attacked.
    And it did feel like an attack. I will never forget that day. 
Because it was on that cold December day, that I had my civil rights 
violated and my faith in my country shaken.
    I was working on the kill floor doing my usual job when the line 
was stopped and my supervisor told me and my coworkers to go 
immediately to the cafeteria. As we walked to the cafeteria, using the 
regular route, a man in full SWAT uniform with a gun stopped us. His 
uniform had no nametag to identify him as a government agent. He asked 
me why I was running away. I politely told him I was not running away 
from anything or anybody, but that I, along with my colleagues, had 
been instructed to go to the cafeteria. He asked for identification, 
which I told him was in my locker. You see, when you work on the kill 
floor, you do not carry identification to the floor because you can be 
splattered with blood. He told me we had to go to the locker room.
    Once there, the agent told me to get against the wall and he 
handcuffed me. He then began to interrogate me about where I was born, 
where I now lived, where my parents live, and whether I was a U.S. 
citizen. I told him I was born in Waterloo, Iowa, and that was where I 
still live. I answered each question honestly and politely although I 
was uncomfortable in the handcuffs and not sure why I was being 
interrogated in this way.
    He asked me why I live in Waterloo and drive all the way to 
Marshalltown for work. It's more than an hour drive each way, but my 
Swift job is a good job and it helps me provide for my family. The 
agent then asked where my parents were from. I told him Mississippi. He 
asked me how to drive from Waterloo to Mississippi. To be honest, I 
didn't know the exact route, why should I? Do you each know the precise 
route to your parents' house? When I didn't answer the questions to his 
satisfaction, he continued to aggressively interrogate me. Was I 
scared? Yes, wouldn't you be?
    He asked me for my locker combination and if I had any weapons. By 
now, I was getting angry. I am a U.S. citizen. I am the son of U.S. 
citizens. I am a father of U.S. citizens. I live in the same state in 
which I was born. I have worked in the Swift plant for more than two 
decades. It is not easy work, so with all due respect to the 
Subcommittee, I found his questioning insulting and offensive. And, 
quite frankly, regardless of my status, his interrogation, the 
handcuffs, the guns, and the agents in SWAT uniforms were all 
incredibly unnecessary and intimidating--and, I had done nothing wrong.
    Why would he ask and suggest that I have a weapon? Why would I 
bring one to work? Because I'm black? Because I work in a packing 
plant? It just wasn't right. I have worked at this plant for more than 
20 years and I was not only being asked if I had a weapon but for my 
locker number. I couldn't even open my own locker because of the 
handcuffs.
    The ICE agent opened my locker and checked my ID. He showed it to 
another agent. They started laughing. I was then escorted outside, 
still in the binding handcuffs, to the cafeteria. It is about a 400 
yard walk. It was December in Iowa. It was cold and snowing and I had 
no coat or gloves. There were armed agents everywhere guarding the 
perimeter of the Swift building.
    By the time I got into the cafeteria, I had been in the handcuffs 
for an hour. The agents finally removed the cuffs and I was forced to 
sit in the cafeteria for the next seven hours with hundreds of my 
coworkers. We had no food and no water. We weren't allowed to use the 
restrooms by ourselves. We couldn't use the phone to contact our 
families, union representatives or lawyers. ICE held me there for eight 
long hours. There was no legitimate reason. There was no probable 
cause. Our plant--our workplace--had been transformed into a prison or 
detention center. We were turned into prisoners because we went to work 
that day.
    Again, for the record, I am a U.S. citizen. I was born and raised 
in this country--in the same state I work and have never been overseas 
in my life. But on that December day, I and all my coworkers, were 
treated by our government like criminals. All we did was wake up and go 
to work. It was a day that was nothing out of the ordinary. We just 
went to work to help provide the food for this country and the support 
for our families. But it wasn't a normal day after all. What happened 
to us that day was simply wrong. No one in this country, regardless of 
their status, should be treated the way we were treated at the 
Marshalltown Swift plant or any of the Swift plants. Working is not a 
crime, and workers do not leave their constitutional rights at the 
plant gate.
    Imagine the outrage if this happened at one of these fancy downtown 
Washington office buildings. Imagine if thousands of innocent people 
were detained for more than eight hours just because the government 
suspected a handful of undocumented workers in the building? It would 
not matter who was in the building at the time, everyone would be 
detained. This would cause a huge uproar and outcry. You think it 
wouldn't happen in Washington but we thought it wouldn't happen in Iowa 
either. We thought it couldn't happen in America's heartland, but it 
did. Innocent workers were handcuffed and detained by our government. 
It would be wrong in Washington, DC and it was wrong in Marshalltown, 
Iowa.
    What happened to me--and to thousands of others of U.S. citizens 
and legal residents on that December day--was a complete violation of 
our rights. And, it did not end there. It can happen at any workplace--
at any time--in this country if we do not do something now to change 
the way these immigration raids are conducted.
    My story is not unique. I wish you could hear all of the stories 
from that day. Perhaps then you would understand the fear that people 
were subjected too. You would hear first hand how we were mistreated 
and how we were treated like a herd of animals. You would hear from 
people whose children were left stranded at schools and daycares, who 
had no idea where their parents were. You would hear from women who 
were frisked by male agents because no female agents were available. 
You would hear from handcuffed women, who were escorted into bathroom 
stalls by agents when they needed to use the facilities. You would hear 
from the woman who was at a local hospital having a miscarriage, but 
ICE would not allow her to contact her husband in the Swift plant 
because he was detained.
    You would also hear from Darryl Harrington, a Korean War veteran, 
who was detained and compared the experience to his time at war. You 
would hear from Walter Molina, another U.S. citizen, who was taken from 
his plant to a detention area more than 6 hours from his home and was 
later released only to have to find his own way home.
    You would hear the story of Delphina Arias, a U.S. citizen. She has 
a son in Iraq and a daughter in ROTC. Delphina was also detained by ICE 
agents. What is happening in this country that we are detaining a 
mother, a mother who is a U.S. citizen, while her son is putting his 
life on the line right now in Iraq? On that day, Delphina thought the 
ICE agents dressed in black who invaded her plant were terrorists 
intent on killing us. She actually thought about pretending she was 
dead if they opened fire on her and her co-workers.
    You would also hear the story of Pasqual Talamantes, who is here 
with me today. Pasqual is a U.S. citizen. But the ICE agents didn't 
believe his story because he does not speak English very well. Pasqual 
was educated in Mexico. He was at the Swift plant in Grand Island the 
day of the Swift raids. He showed his driver's license to the agents 
but although it is current, it is old and he is thinner than his 
picture. The agents did not believe it was his license and yelled 
racial slurs at him. Pasqual insisted that he was a U.S. citizen and 
that he had a U.S. passport at home. He pleaded to be released so he, a 
single parent, could go home to his children. ICE detained him for six 
horrific hours. Could there be a more concrete example of racial 
profiling and to what end? Was any of this necessary?
    These are just a few of the stories you would hear from Swift 
workers who were abused, traumatized, and mistreated in the guise of 
immigration reform by the U.S. government. Members of this 
Subcommittee, something has to be done so that this never happens to 
anyone in this country again. It was horrible to watch how we were 
treated that day. It was hurtful to see the fear in my co-workers eyes 
and to understand the trauma we all experienced. Again, all we did was 
go to work that day. The raids hurt our community. It hurt our company. 
And it is hurting our country still.
    Thank you again for the opportunity to testify today and tell you 
my story and my co-workers' stories. I urge you to use the power of 
your offices to correct this injustice and to fight to end these 
discriminatory, un-American practices by ICE. Again, thank you for your 
time and I would be pleased to answer any questions that you may have.

    Ms. Lofgren. Thank you very much, Mr. Graves.
    Miss Hartzler?

 TESTIMONY OF KARA HARTZLER, ATTORNEY, FLORRENCE IMMIGRANT AND 
                     REFUGEE RIGHTS PROJECT

    Ms. Hartzler. Madam Chairwoman and Ranking Member King and 
Members of the Subcommittee, thank you for inviting us here 
today.
    My name is Kara Hartzler, and I am an attorney at the 
Florence Immigrant and Refugee Rights Project in Arizona.
    The Florence Project is a nonprofit organization providing 
free legal services to persons in Arizona who are detained by 
ICE.
    We do this by conducting legal orientation presentations to 
detainees before their first deportation hearing and by 
providing individual follow-up services to those who do not 
have lawyers but maybe eligible to remain in the United States.
    In the course of my work with the Florence Project, I have 
talked to thousands of people who are in the process of being 
deported. And I would like to tell you a few of those stories 
today.
    About a month ago, I spoke with a man named Thomas Wozniak 
in Florence, Arizona on the morning of his deportation hearing. 
When I asked Mr. Wozniak where he was born, he replied, 
``Minnesota.''
    He told me he was raised in the south and that he had never 
left the United States in his life. When I asked if he knew why 
the U.S. was trying to deport him, he said that someone had 
told him he had a foreign-sounding name.
    Because he was detained, he did not have access to his 
birth certificate nor did he have any family or friends who 
could obtain a copy.
    He had heard it cost $30 to order a copy of his birth 
certificate, so he was working in the prison kitchen for a 
dollar a day until he had the money to order one. So far, he 
had $8 and he hoped to earn the remaining $22 before his next 
court date in several weeks.
    In my experience, stories like that of Mr. Wozniak are not 
rare. Under immigration law, a person is a citizen of the 
United States by birth, naturalization, or because the person 
automatically acquired or derived citizenship through a parent.
    On average, our organization is currently seeing 40 to 50 
cases per month in which individuals with potentially valid 
claims to U.S. citizenship are being detained and deported.
    Why aren't we hearing about these cases? Because as is 
often the situation, it is happening to the most vulnerable in 
our society; to racial and ethnic minorities, the mentally ill, 
people who cannot afford to hire a lawyer, people who are 
homeless and have no access to documents, people with no family 
to help them.
    In immigration court, unlike criminal proceedings, the 
government does not provide a lawyer to those who can't afford 
one.
    One of our clients named Anna, who suffers from psychosis 
and schizophrenia, represented herself before the immigration 
judge.
    Anna consistently maintained three things: That she was 
born in France; that former President John F. Kennedy was her 
father; and that the Pope was also her father.
    Despite the obvious unreliability of the latter two 
statements, ICE used the former statement to argue that she 
could be deported to France. ICE presented no evidence, apart 
from her statement, that she was born outside the United 
States, and the French consulate denied that she is a citizen 
of that country.
    Anna has been detained for 5 months in Eloy, Arizona.
    Sometimes, persons who are born at home for religious or 
other reasons were never issued a birth certificate and are 
subsequently detained and deported.
    Javier was born at home in El Paso, Texas and never 
obtained a birth certificate. After completing probation for a 
misdemeanor, his probation officer informed him that she would 
have to report him to ICE.
    When Javier told her that he was born in Texas, she 
replied, ``I know, I am sorry. But I have to cover my ass.''
    In some cases, the detention and deportation of U.S. 
citizens is the result of inexcusable error. About a year ago, 
I met a man named Joseph who was detained in Eloy, Arizona.
    Joseph was born in the Sudan and had automatically derived 
U.S. citizenship from his parents because he had turned 18 
after they naturalized. To prove this, Joseph submitted a copy 
of his original birth certificate in Arabic and a translation 
of it to the judge that showed that he was born on October 2, 
1985.
    However, ICE submitted a competing translation that 
incorrectly interpreted the date on the certificate as February 
10, 1985, based on the assumption that the first number in the 
date represented the month rather than the day, which is not 
the practice in the Sudan where the birth certificate was 
issued.
    The judge, nevertheless, accepted ICE's translation, 
rejected Joseph's, and ordered him deported.
    When I talked to Joseph, he was disgusted and wanted to 
give up. I convinced him to let me try and reopen his case. And 
with a new translation from an Arabic expert, the judge finally 
acknowledged that Joseph was, indeed, a citizen.
    Even after the judge's ruling, Joseph was not released for 
another 40 days, a full year and a half after he was first 
detained.
    Following my conversation with Mr. Wozniak, the man born in 
Minnesota, I contacted a reporter who was able to find a record 
of his birth within several hours. After being incarcerated for 
over a month, Mr. Wozniak was finally released.
    Ironically, he is one of the lucky ones.
    Another man I am assisting with a valid claim to 
citizenship has been detained for over 4 years. It is my 
observation that these cases are surprisingly, painfully 
common; that U.S. citizens are being detained and deported from 
the United States not monthly or weekly, but on a daily basis.
    Thank you.
    [The prepared statement of Ms. Hartzler follows:]
                  Prepared Statement of Kara Hartzler

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much.
    Miss Rosenbloom?

TESTIMONY OF RACHEL E. ROSENBLOOM, HUMAN RIGHTS FELLOW, CENTER 
  FOR HUMAN RIGHTS AND INTERNATIONAL JUSTICE AT BOSTON COLLEGE

    Ms. Rosenbloom. Madam Chairwoman, Ranking Member King, 
Members of the Subcommittee, thank you for holding this hearing 
and for inviting me to appear here today.
    My name is Rachel Rosenbloom. I am here on behalf of the 
Center for Human Rights and International Justice at Boston 
College.
    The main point that I wish to emphasize today is that these 
cases that you have heard, the deportation of U.S. citizens, 
are not isolated incidents.
    The Center for Human Rights and International Justice at 
Boston College has documented at least eight cases in recent 
years in which U.S. citizens have been removed.
    We believe, based on anecdotal evidence, that there are 
additional cases that have not been publicly reported, and we 
are currently researching those.
    Rather than describe these cases, I want to focus on the 
systemic problems that allow such egregious errors to occur. 
Over the past decade, our deportation system has increasingly 
come to rely on fast-track removal processes that bypass our 
immigration ports entirely.
    A case such as Mr. Guzman's makes visible to the public 
something that is obvious every day of the year to people 
facing removal; that entrusting high-stakes decisions to low-
level officers with little or no review creates conditions that 
are ripe for error and even sometimes coercion.
    One such process is expedited removal introduced in 1996 
which allows immigration officers to summarily exclude foreign 
nationals who lack proper documentation.
    Those subject to expedited removal have no right to counsel 
and no right to a hearing before an immigration judge.
    Initially, it was used only at ports of entry, but it is 
now increasingly being use in the interior. And although a 
person is supposed to be referred to an immigration judge if 
they make a citizenship claim, the Center is aware of at least 
two cases in which U.S. citizens have been removed through this 
process without ever being referred to immigration court and 
others who have been threatened with jail time and detained for 
weeks on end through this process.
    Another fast-track removal process is administrative 
removal, introduced in 1994, which applies to noncitizens who 
are not permanent residents and have been convicted of certain 
types of crimes.
    Again, this is done by an immigration officer, not an 
immigration judge. There is no right to a hearing, and if you 
make a citizenship claim, you are supposed to be referred to a 
judge.
    But, again, we are aware of cases in which this hasn't 
happened; where people have been removed through this process, 
citizens like Linda Smith Wilmore, a 71-year-old, partially 
blind, lifelong resident of New York State who was born in 
Albany, New York in 1931 and had a birth certificate on file 
there.
    The third fast-track removal process involves immigration 
officers and, increasingly, law enforcement officers who obtain 
the consent of U.S. citizens for their removal. This may occur 
through a stipulated order of removal or by the person 
accepting pre-hearing voluntary departure.
    The people sign away all of their rights inherent in their 
citizenship without ever consulting with an attorney and 
without an immigration judge ever determining that such an 
admission is voluntary, knowing, and intelligent or that 
deportation is warranted.
    So when considering how these processes affect U.S. 
citizens, consider the following statistics. Seven percent of 
U.S. citizens do not have ready access to proof of their 
citizenship such as a U.S. Passport, naturalization papers, or 
a birth certificate.
    Among U.S. citizens who earn less than $25,000 person year, 
12 percent lack ready access to such proof of citizenship.
    So for a person who is on the margins of our society due to 
a disability, a drug addiction, or even just due to poverty, 
getting picked up at an ICE raid or getting turned over to ICE 
after a minor brush with the law can mean entry into a system 
that can truly be called----
    I just want to--in closing, I want to highlight three 
factors that really magnifies these problems associated with 
this system. The first is lack of access to counsel.
    Ninety percent of detainees lack legal representation, and 
it can be crucial in citizenship cases. Sometimes, 
particularly, if you derive citizenship from a parent, it can 
take sophisticated legal analysis necessary to prove that.
    The second factor is mandatory detention which brings 
people all over the country far from their friends and family 
who might be able to help them with their case, far from free 
or low-cost legal services.
    And the third factor is the lack of accommodation for 
individuals with disabilities as I think has become evident 
from many of the stories that have been told today.
    And finally, although my principle focus is on the 
deportation of U.S. citizens, I want to say that these systemic 
problems lay out in a much wider arena. The Center is aware of 
a large number of cases in which long-time legal residents, 
green card holders, have been removed on the basis of criminal 
conviction that do not actually trigger removal or convictions 
that don't bar discretionary relief.
    Faced with the prospect of lengthy detention and lacking 
the financial ability to hire an attorney, many simply concede 
removability.
    The costs of this system are borne not only by those 
supported by their loved ones who are left behind, including 
many U.S. citizens' children who have been senselessly deprived 
of the presence and support of a parent. And there is also a 
great cost to all of us and to the system itself, to our legal 
system, when the rule of law just fails within these 
situations.
    Thank you.
    [The prepared statement of Ms. Rosenbloom follows:]
              Prepared Statement of Rachael E. Rosenbloom

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much.
    Mr. Stein?

  TESTIMONY OF DAN STEIN, PRESIDENT, FEDERATION FOR AMERICAN 
                       IMMIGRATION REFORM

    Mr. Stein. Thank you, Madam Chairman.
    My name is Dan Stein. I am president of the Federation for 
American Immigration Reform.
    I very much appreciate the opportunity to be here today to 
talk about the subject of the hearing.
    I, first, would like to say that I think everyone can 
agree, and I am sure that we all agree that the inadvertent 
deportation of U.S. citizens ought to be an extremely rare 
occurrence, nothing that we would ever want to tolerate.
    And, certainly, FAIR has been, I believe, as supportive as 
anyone else in the efforts to try to improve detention and 
removal proceedings over the years to try to ensure that these 
sorts of things don't happen.
    Certainly, all of us feel compassion and concern for 
someone who, in the case of Mr. Guzman, lacking, I guess, the 
mental capacity, to assert his citizenship, wasn't able to 
assert his rights effectively.
    And changes should be made to try to improve those 
procedures.
    At the same time, in my testimony, I talk a good deal about 
the recent increases in detention, deportation; how these 
increases, while these amount to several billion dollars a year 
more, nevertheless, are necessitated by a rapid increase in 
illegal immigration.
    And there still have been, nevertheless, declines in 
enforcement personnel in--states which declined by 3 to 6 
percent between 2002 and 2004.
    The public is demanding dramatic increases in interior 
enforcement in response to unprecedented levels of illegal 
immigration. FAIR supports that very strongly. We have been one 
of the major forces pushing for an increase in interior 
enforcement.
    A couple of things I want to point out during my brief 
statement is--and I have been working on this now for 26 years. 
Been here a long time at this.
    I can remember how many Committee meetings focused on the 
problem of false claims to citizenship. False claims to 
citizenship are a very difficult problem in ICE enforcement 
procedures.
    Let us be honest about it, we are asking the government to 
do an impossible job.
    The main reason is, of course, that there is no easy way to 
verify citizenship. It is not simply that many Americans do not 
have ready access to proving their citizenship. In fact, I 
think the numbers are dramatically higher than what we heard 
earlier.
    But that there have been persistent efforts over the years 
by many of the organizations which are concerned about, 
apparently, the deportation of U.S. citizens; many of those 
same organizations that stand in the way of much-needed 
improvements in developing things like machine-readable 
driver's licenses to verify birth records and/or naturalization 
records to enable U.S. citizens to quickly and easily prove 
citizenship.
    I have no privacy interest in the fact that I am a U.S. 
citizen. And yet sitting here today, I can't verify it easily. 
I would have an easier time verifying my shopping record or my 
Internet browsing history than I would the fact that I am a 
U.S. citizen.
    So in the end, we, as a Nation, have created an impossible 
situation. Surely, no one can say that we are devoting too many 
resources to interior enforcement given the fact that ICE 
deported approximately 135,000 people in formal removal 
proceedings last year, but there are an estimated 12, 13 
million illegal aliens in the United States. Arguably, if 
anything, our enforcement procedures remain far too laxed.
    And I believe that in the average point of view of today's 
American voter could concur that, in fact, we are not enforcing 
the law anywhere near the shape or form of what we ought to be 
in this country.
    We believe that Congress ought to concern itself with 
asking the question: Why is it that we are not able to enforce 
the law more effectively in the interior? Why have we allowed 
this Byzantine document structure and the failure, including 
state and local enforcement force multipliers, to be 
established to enable worksite enforcement to happen more 
routinely and smoothly rather than this once every 20-year 
event that we see going on?
    So I would suggest that we very strongly believe that we 
should look at these problems more as an opportunity to look at 
what kind of resources are needed over time. We have allowed 
our interior enforcement apparatus to atrophy for many, many 
years.
    It has happened as a result of aggressive lobbying by 
private special interests in the United States who seek to use 
immigration to control labor costs. We should enforce these 
laws in the interior because they benefit U.S. citizens by 
improving bargaining leverage which leads to an increase in 
wages and working conditions.
    We believe it is time to change direction. Vigorously 
enforcing our immigration laws fairly, certainly humanely, but 
at the same time effectively, is clearly going to have a 
negative impact on people who have broken our law.
    At the same time, however, we believe the basic principles 
of fairness and justice require that we not provide special 
benefits to those who have chosen to jump the line and break 
the law in front of millions of people who wait patiently and 
respect our system.
    Thank you very much. And I would be happy to answer any 
questions.
    [The prepared statement of Mr. Stein follows:]
                    Prepared Statement of Dan Stein
    Madame Chair, members of the subcommittee, thank you very much for 
the opportunity to testify here today on behalf of the Federation For 
American Immigration Reform (FAIR). I have included information on FAIR 
at the end of my statement.
    FAIR strongly supports the principle that U.S. immigration law is 
just as important as any other law in the United States Code, and that 
the enforcement of these laws is vital to maintenance of a sense of 
fairness and justice to all Americans who work hard to respect all the 
laws of this nation. Basic principles of fundamental fairness and 
respect for law are the cornerstones of citizenship in this highly 
diverse society. There many who argue that violating an immigration law 
lacks any negative moral connotation. We disagree. One reason why many 
immigrants want to come to the United States is because here ``the 
system works.''
    Congress has passed laws and the Executive Branch maintains a 
series of procedures governing the arrest, detention and removal of 
aliens illegally inside the United States. They are under constant 
review. We support the effective and humane administration of these 
laws and procedures, consistent with the process that is due at all 
points of apprehension, detention and removal.
    In the administration of these complex laws and procedures, 
mistakes will occasionally be made. This is especially true given the 
scope and complexity of these procedures, the demands of limited 
resources and the fact that human beings are fallible. The effective 
and judicious administration of all phases of these procedures will 
require a continued and growing infusion of resources: the management 
of immigration process is an extremely expensive proposition if it is 
to be done right.
    But when mistakes are made by ICE in the administration of these 
laws, it is a serious matter. Our nation's commitment to fairness and 
the rule of law dictate that all instances of misconduct be 
investigated thoroughly and, where criminal conduct is proved, a full 
prosecution should invariably follow. Where rules and procedures are 
not followed, such as in the inappropriate administration of sedation 
drugs, the willful failure to identify sole caregivers in the course of 
an interior enforcement operation and similar events, an investigation 
should follow from the Inspector General to ascertain why procedures 
were not followed.
    Madame Chair, we understand at FAIR that immigration policy 
involves sensitive and emotional issues--the very real impacts on real 
people are factors that must be considered in the establishment of any 
enforcement policy. We must be true to our principles as a people and 
work to ensure that immigration enforcement--vigorous and effective--
nevertheless respects basic human rights and the dignity of all 
involved.
    At present, the Department of Homeland Security's Immigration and 
Customs Enforcement Program (ICE) program for detaining and removing 
illegal aliens is undergoing rapid expansion. The Bush Administration's 
most recent budget request seeks an additional $3 billion for internal 
enforcement, including work-site raids conducted by Immigration and 
Customs Enforcement officials. The President will ask for $1.8 billion 
more to expand ICE's capacity to detain illegal immigrants by providing 
1,000 more detention beds.
    This rapid funding increase is necessitated by a rapid increase in 
illegal immigration, by declines in enforcement personnel and funded 
bed space (which declined by 3 percent and 6 percent, respectively 
between 2002 and 2004), and by public demands that interior immigration 
enforcement be dramatically expanded. Despite an increase in overall 
resources, bed space and personnel levels have failed to keep pace with 
the growing number of alien apprehensions.
    According to a 2006 audit report issued by the Department of 
Homeland Security's Office of Inspector General, ``of the 774,112 
illegal aliens apprehended during the past three years, 280,987 (36 
percent) were released and largely due to a lack of personnel, bed 
space, and funding needed to detain illegal aliens while their 
immigration status is being adjudicated.'' Further, an astounding 62 
percent of the aliens released ``will eventually be issued final orders 
of removal by the...Executive Office of Immigration Review (EOIR) and 
later fail to surrender or abscond.'' We now have over 600,000 alien 
fugitives in the United States.
    According to DHS, three major problems facing the Detention and 
Removal Office (DRO) are ``(1) the propensity of illegal aliens to 
disobey orders to appear immigration court; (2) the penchant of 
released illegal aliens with final orders to abscond; (3) the practice 
of some countries to block or inhibit the repatriation of its citizens; 
and (4) two recent U.S. Supreme court decisions which mandate the 
release of criminal and other high-risk aliens 180 days after the 
issuance of the final removal order except in `Special Circumstances.' 
'' DRO says major problems carrying out large-scale removal include 
lack of ``sufficient resources,'' a lack of ``political will, and the 
[lack of] operation of foreign governments.'' Department of Homeland 
Security Office of Inspector General, Detention and Removal of Illegal 
Aliens, OIG-06-33 (April 2006).
    FAIR calls on Congress and the national political leadership of 
this nation to demonstrate the political will to dramatically increase 
the enforcement of US immigration laws in a manner consistent with 
credible deterrence. We would also like some broader recognition of the 
tremendous hidden processing and enforcement costs associated with the 
administration of laws associated with the use of so-called 
``inexpensive'' foreign labor.
    At present, specific problems with individual enforcement 
operations are properly subject to internal investigations by DHS. 
Every one of these allegations is worthy of serious consideration, all 
the while keeping in mind that many of the underlying facts are omitted 
from news reports. Further, we would suggest that overall policy 
changes not be made on the basis of one or two isolated instances of 
agent misconduct. Rather, we should be looking at the entire set of 
objectives in the aggregate and work to fashion an enforcement strategy 
that will operate to serve the nation as a whole.
    Furthermore, we are concerned that these isolated incidents are 
being used to try to build political support by those who oppose 
immigration enforcement generally. The reaction to the recent increases 
in interior enforcement--welcomed by the overwhelming majority of the 
American people--has been negative among those organizations 
traditionally opposed to robust enforcement strategies.
    With an estimated population of illegal aliens ranging from 12 to 
13 million, one can hardly argue that this nation is too aggressive in 
its enforcement of immigration law. In 2005, DHS's Immigration 
Enforcement Actions report 135,610 formal removals--perhaps 1% of the 
illegal immigrant population in the United States. Clearly, the 
government has only begun to initiate which promises to be a multiyear 
effort.
    Commonly we hear the red herring, ``What you want, mass 
deportations?'' To which I respond that 135,000+ formal removals is 
already a form of mass deportation. Moreover, the sort of large-scale 
interior enforcement operations contemplated by the term ``mass 
deportations'' are unnecessary. This problem was not created overnight. 
It will not be solved overnight. Stepped up interior enforcement, when 
combined with the aggressive enforcement of employer sanctions, 
dramatically increased detention space, and streamlined removal 
proceedings will achieve the deterrence that will encourage most 
illegal aliens to return home.
    Madame Chair, we believe it is possible to enforce our immigration 
laws in a manner that is both effective and consistent with our values. 
We see the effects of state-based policy changes now: deterrence sets 
in quickly once it becomes clear that remaining unlawfully in the 
United States is not a viable option.
    Our immigration law enforcement is notoriously lax. While we 
understand that there are organizations and interests that seek to 
abolish nearly all forms of immigration enforcement, we believe that is 
a minority view. Even under today's relaxed standards, the United 
States deports well over 100,000 aliens from the interior of the 
country each year. While it will be costly to dramatically increase 
detention and bed space to bring about true deterrence, such costs can 
be reduced through expedited removal and similar streamlining 
techniques. The United States utilized expedited removal to repatriate 
over 70,000 aliens in 2005, and last year the Administration started 
using expedited removal for non-Mexicans apprehended near the border.
    The administration has more authority to use expedited removal than 
it has exercised to date. Current law allows the administration to 
utilize expedited removal for any alien who entered illegally and has 
been in the United States for less than two years. FAIR has previously 
supported provisions of the House-passed version of the Intelligence 
Reform and Terrorism Prevention Act of 2004, which require the use of 
expedited removal for all aliens who enter the US illegally and have 
been here for less than five years. This is the sort of creative and 
innovative thinking we would like to see expanded.
    Madame Chair, this nation has allowed its interior enforcement 
apparatus to atrophy for years. It has happened as a result of the 
aggressive lobbying of private, special interests in United States who 
seek to use immigration to control labor costs. We believe it is time 
to change direction. The simple truth is that vigorously enforcing our 
immigration laws will have a negative impact on illegal aliens. 
However, we believe that the basic principles of fairness and justice 
require that we not provide specific benefits to those who have chosen 
to jump the line and break the law.
                                 ______
                                 
About FAIR
    FAIR is the nation's oldest and largest national public interest 
organization working to reform U.S. immigration laws. Bound by a common 
purpose and broad sense of mission, we seek to advance forward-thinking 
immigration policies that serve the wide array of U.S. domestic 
priorities that, in our view, are fundamentally inconsistent with 
today's mass and poorly-regulated immigration system.
    FAIR seeks to end illegal immigration through improved enforcement 
strategies, and we seek to reduce overall immigration levels to those 
more consistent with 400 years of history--to reduce levels from well 
over one million a year today to around 300,000 a year over a sustained 
period of time.
    FAIR has a wide base of support that includes nearly 50 private 
foundations and nearly 200,000 individuals. Unaligned with any major 
party or financial interest, FAIR is noteworthy on two counts:

        1)  We are bipartisan. Our Board of Directors, Advisors and 
        members include Democrats, Republicans and Independents. We 
        also have a broad constituency that includes members of all 
        ethnic and racial communities in the United States. We have 
        members, activists and affiliated organizations that include 
        strong representation from the African American and Latino 
        communities.

        2)  We have always sought to ensure that immigration policies 
        never discriminate for or against persons on the basis of race, 
        religion, gender or other invidious basis.

    Over the years, FAIR has played a major role in virtually all major 
immigration policy changes. As champion of an enlarged and long-range 
national interest, FAIR seeks to advance America's understanding of the 
role of immigration to the U.S. in the 21st Century. We fought for 
policy improvements in the landmark 1986 Immigration Reform and Control 
Act, in asylum laws in the Refugee Act of 1980 as well as in legal 
reforms in 1990 and 1996. From 1993 onward, FAIR was intimately 
involved in examining, exposing and closing loopholes that might be 
exploited by international terrorists. After the 9/11 terror attacks, 
FAIR was instrumental in fashioning important legislative and policy 
changes that have helped advance U.S. national security in major ways.
    Perhaps most importantly, FAIR has always sought to fashion a 
workable immigration system that considers the downstream impacts of 
today's policies on tomorrow's generations. Looking ahead fifty years, 
FAIR has been one of the few voices in the nation to ask: What will it 
mean to move from a crowded society of 300 million today to nearly one 
billion by the end of this century? FAIR--unattached by party loyalties 
and special interest affiliations--simply seeks to help Americans 
consider the full dimensions of how immigration policies affect, and 
will affect, the nation's welfare over time.
    Long considered the most credible voice on U.S. immigration policy 
in America today, FAIR has been asked by Congress to testify on a wide 
range of issues--well over 100 times--and is a routine voice on 
national television. FAIR and its law firm affiliate the Immigration 
Reform Law Institute routinely submit both popular and scholarly 
articles for publication and our research division puts out some of the 
best fact-based immigration analysis in the country.
    Madame Chair, thank you very much for the opportunity to offer the 
views of FAIR.

    Ms. Lofgren. Thank you, Mr. Stein.
    Thank you to all of the witnesses. Now is the time when we 
have an opportunity to ask questions, and I would like to 
invite the Ranking Member to ask his questions.
    Mr. King. Thank you, Madam Chair.
    I appreciate all the witnesses' testimony, and I have a 
series of places to start here.
    But maybe I would go to the statement made by Mr. 
Brosnahan. The mother who went for days in Mexico searching 
from morgue to morgue.
    Mr. Brosnahan. Yes.
    Mr. King. And I am going to make a statement here. I am not 
sure I will have a question, Mr. Brosnahan, on that.
    Mr. Brosnahan. Surely.
    Mr. King. I would point out that there are mothers, 
fathers, brothers, and sisters that go to morgues every day in 
America because of failure to enforce immigration law; and that 
27 percent of the inmates in our Federal penitentiaries are 
criminal aliens.
    There are numbers that support that being a representative, 
also, in state in local prisons.
    If even a fourth of the murders in the United States are 
committed by those individuals that fit that category, that is 
over 4,000 a year. That means there hasn't been a single day go 
by in this country that there hasn't been a mother, father, 
brother, or sister going to a morgue in the states, too.
    Mr. Brosnahan. But are you saying----
    Mr. King. My point----
    Mr. Brosnahan [continuing]. It is, therefore, justified?
    Mr. King. My point is, Mr. Brosnahan----
    Mr. Brosnahan. Yes, sir.
    Mr. King [continuing]. Is that if we--we have one single 
case here that we know about. There are others that have been 
gathered in the testimony of Miss Hartzler which I intend to 
ask her a question in regard to that.
    But if there is a factor involved in this kind of hearing 
that says we should never have a single exception out of maybe 
even one out of a million is one of the numbers that was 
produced by Mr. Mead, it may end up being more American lives 
in the process.
    So I would just ask you if you could quickly answer, do you 
expect it to be without exception? Can we be a hundred percent 
right? And I think there were points that were made here about 
some lack of respect and strong-arm tactics. I think they are 
valid.
    So I hope you don't address that.
    But are you asking that this be without exception even in 
spite of the risks that I have pointed out?
    Mr. Brosnahan. Here is what I know that might be helpful, 
and it is a point of view.
    As a Federal prosecutor for 5 years and a defense lawyer 
for too many years, any police agency--and this agency that you 
supervise is a police agency in large part. They do other 
things, too; administrative things. But they are a police 
agency. It requires total discipline. That is true of the FBI, 
all those agencies.
    And if they don't----
    Mr. King. [OFF MIKE]
    Mr. Brosnahan. But please; you asked me. Did you want an 
answer?
    Mr. King. And I said----
    Mr. Brosnahan. Do you want an answer?
    Mr. King. Do you expect this to be without exception?
    Mr. Brosnahan. Yes.
    Mr. King. That was my question.
    Mr. Brosnahan. Yes. Put me in charge of the ICE.
    Mr. King. Okay.
    Mr. Brosnahan. There would be new administration, and there 
will not be U.S. citizens--you won't have this problem. And you 
can get much better people than that if you want to exercise 
the oversight with which you----
    Mr. King. Thank you. I do have your answer, and my time is 
limited. So I appreciate----
    Mr. Brosnahan. Okay.
    Mr. King [continuing]. Your testimony.
    I would turn to Mr. Graves at this point, and I want to 
make sure I welcome him as a fellow Iowan and I appreciate your 
testimony in coming here today as well as all of you.
    And that is not a case that I am unfamiliar with. My 
question first is what is the temperature on the kill floor?
    Mr. Graves. Excuse me?
    Mr. King. What is the temperature on the kill floor?
    Mr. Graves. On the kill floor, it is about a hundred 
degrees, maybe 95 degrees on the kill floor.
    Mr. King. Even in December when this case took place?
    Mr. Graves. Yes.
    Mr. King. So that is why you are in there in t-shirts. I 
just had to clarify that. I haven't been on the kill floor in a 
while.
    Mr. Graves. Yeah.
    Mr. King. And when you walk out of there into 20-degree 
temperature, it is a long walk.
    Mr. Graves. Yes.
    Mr. King. The individuals that were with you when you 
walked over to the cafeteria, they had two individuals with 
you? Your testimony said other Hispanics, but I presume--how 
were they processed?
    Did they come back to work with you?
    Mr. Graves. I never seen just that day it happened. But----
    Mr. King. Were they deported then, Mr. Graves?
    Mr. Graves. I don't know. I don't know if they quit or 
whatever, but after that day, they never came back. When they 
took me to my locker; that was the last I saw of them.
    Mr. King. They were either deported or intimidated out of a 
job, most likely?
    Mr. Graves. Exactly.
    Mr. King. Are you aware of a couple that, an African-
American couple, that drove up from Dallas when they heard this 
in the news, American citizens, to apply for jobs and went to 
work there as a man and a woman that had been looking for jobs 
in Dallas that were attracted to come to Marshalltown?
    Mr. Graves. No. Never heard about that one.
    Mr. King. I picked that up from a local legislator that was 
working a soup line at the church, and I thought that was the 
happy story about this; that any time Americans can go to work, 
people that are lawfully present in the United States, legal to 
work in the United States, to fill those slots, I thought that 
was a good story.
    Mr. Graves. Yes.
    Mr. King. And I wanted to pass that along. So, again, I 
appreciate your testimony, but I wanted to turn to Miss 
Hartzler in the limited time that I have.
    And you talked about--let us see--the language that you 
used was U.S. citizens are being deported or detained on a 
regular basis, not monthly or weekly, but daily.
    And that deported or detained is two different categories. 
And it would be detentions of American citizens for a lot of 
different reasons, and ICE can probably, despite Mr.--position 
on this, can probably avoid detaining American citizens in the 
process of doing their job.
    So can you break that down for me and give me the number 
that you think are those that were being deported on a regular 
basis? And I would ask you if you can produce the names of 
those people so that we could do a more comprehensive analysis 
of that because I am working with one name right now.
    Ms. Hartzler. I think there are a lot of categories of 
people within the montrose of a U.S. citizen who are being 
detained or deported.
    First of all, they are native-born citizens, and we have 
heard the story of Pedro Guzman. However, there is along a 
very, very large group of people who were not necessarily born 
in the United States, but have acquired or derived citizenship 
even those that were born outside the United States.
    Those are the cases that I most often see being deported. 
And a lot of times, they are being deported because the process 
of them being able to prove their citizenship before an 
immigration judge is so difficult, particularly without family 
support, that it can often take weeks, months, years.
    So when I see people who are citizens who are deported, it 
is often because they are so frustrated over the length of time 
they have to spend incarcerated that they essentially give up 
and they allow themselves to be deported even though they have 
a valid claim to U.S. citizenship.
    And the ones who don't give up, who stay, will often be 
detained for years at a time.
    Mr. King. Do you actually have a case for them, and when a 
judge has heard your assertions, now, these cases, have they 
been before the judge?
    Ms. Hartzler. Yes. And I would also--I would clarify that 
because of large numbers, our organization generally doesn't 
represent people in court. We are helping assist people to 
represent themselves before an immigration judge.
    Mr. King. Okay. So you wouldn't be talking about cases that 
have been adjudicated and the court has denied their claim to 
citizenship?
    Ms. Hartzler. There are some of those, but there are also 
quite a few cases where the judge has actually said, Yes, this 
person is a citizen; and ICE will appeal. And that appeal will 
last 6 to 8 months.
    Mr. King. What do we do, then, when the individual alleges 
and may well have been born in the United States, not in the 
hospital without a birth certificate, maybe near the border, 
who may or may not have been raised in the United States; how 
do we resolve an issue when it is the family making an 
allegation and there are no other witnesses that can testify or 
verify that particular case?
    I just----
    Ms. Hartzler. Well, I think it is a very difficult 
situation. But I would point to the law that says that it is 
ICE's burden to prove born birth. And ICE, first of all, has to 
say, We have some sort of information showing that this person 
was born outside of the United States.
    If ICE does not meet that burden, or if ICE does meet that 
burden, then, indeed, the burden shifts to the person who is 
claiming citizenship to prove.
    Mr. King. Has ICE ever proved foreign birth? Other than--
has ICE ever proved a foreign birth that wasn't supported by a 
birth certificate document in a foreign country? How would they 
prove--how would they prove that an individual was born in a 
foreign country?
    Ms. Hartzler. They will often use the person's statement. 
And, as my testimony highlighted, if you have a person with 
mental illness, they will often say that they were, sometimes, 
born outside of the United States.
    So those statements are, in my opinion, are inherently 
unreliable in terms of proving alienage. And yet they are used 
by ICE. So that is one of the situations.
    I think it is a very difficult situation, but in my 
experience, ICE has shown less interest in objectively 
determining citizenship than in disproving and rebutting claims 
to citizenship.
    Mr. King. Just one brief question.
    Ms. Lofgren. Certainly.
    Mr. King. I think my clock ran out a while ago. But I 
just--I am curious about how you would view this, revealing 
with this huge haystack of humanity. And ICE has a big mission, 
and national security is wrapped up in it. That is why they are 
part of the Department of Homeland Security.
    The level that has been charged here for them, this hundred 
percent, never fail, never-cross-the-line level that Mr. 
Brosnahan has laid out--and I know he has conviction in that. 
And there is probably some validity in his viewpoint.
    Do you think that could ever be reached practically? Or are 
we going to have exceptions no matter what we do?
    Ms. Hartzler. I am sorry. Could you--I know we are getting 
out of time, but could you restate that question?
    Mr. King. Yes. The standard of not making mistakes and not 
being abusive, which I will certainly hold them to that 
standard as well--but do you think that that level of 
efficiency at ICE could ever be reached?
    Do you think that no matter who is running the operation 
and what kind of personnel we have that we wouldn't be back 
here in 5 or 10 years with at least one or a few cases like 
have been brought forward today?
    Ms. Hartzler. No. I think that it is very, very difficult 
to ensure that no citizen is ever deported. But I think the 
point of my testimony would be that our current procedural 
safeguards are so lacking in the numbers that I personally am 
seeing border on routine deportation and detention of U.S. 
citizens.
    Mr. King. I get your point, and I appreciate it. Thank you.
    Thank you, Madam Chair.
    Ms. Lofgren. Thank you.
    Let me ask Justine--I want to go through and make sure I 
understand how events unfolded in your house.
    Now, you were in your room when you heard the voices of the 
Federal agents in your home; is that right?
    Ms. Mancha. Yes.
    Mr. King. Yes. Is that correct?
    Ms. Mancha. I had heard car doors slamming. I looked out 
the window and didn't see anything. So then I start--I was in 
my room and then I started hearing police.
    Mr. King. Did they knock?
    Ms. Mancha. They were already in my house when I walked to 
the living room.
    Mr. King. And they didn't ask if they could enter?
    Ms. Mancha. Uh-uh.
    Mr. King. Did they show you a warrant?
    Ms. Mancha. No, ma'am.
    Mr. King. Once they saw you, did they ask you if it was 
okay that they were in your house?
    Ms. Mancha. They just started asking me questions.
    Mr. King. Now, they came in and asked you specifically 
about your mother; is that right?
    Ms. Mancha. Yes, ma'am.
    Mr. King. But your mother was born in Florida?
    Ms. Mancha. Yes.
    Mr. King. She wasn't even a nationalized citizen. Did they 
offer any why they thought you or your family were 
undocumented?
    Ms. Mancha. They just started asking me questions about my 
mom and if she had a green card or not. I said she doesn't need 
a green card. She was born in Florida.
    Mr. King. Yes. Mr. Graves, you gave compelling testimony 
and actually painted a pretty vivid picture of what that day 
was like. I wanted to ask you about Walter Molino, one of the 
U.S. citizens who was caught up in the ICE raid.
    As I understand it, even though he was a United States 
citizen, he was detained and then driven to a detention center 
6 hours away, and then simply released when ICE realized he was 
a U.S. citizen.
    Did they take him back to where they picked him up, or did 
they offer to give him a ride back? Or did they just dump him?
    Mr. Graves. From what I understood, somebody had to come 
pick him up from there.
    Ms. Lofgren. Mr. Brosnahan, you have spoken with tremendous 
passion about Mr. Guzman's situation. And as I understand your 
testimony, all the information was available had they had just 
bothered to check on----
    Mr. Brosnahan. All of it was right there in the records in 
the sheriff's office and in ICE. All they had to do was look at 
the booking sheet, which I have read. I have read all the 
documents. That is all they had to do.
    And the problem in terms of your going forward with it is 
the question that should be asked today is what is going on in 
the 400 local police agencies that have been deputized by ICE 
people to do these kinds of interrogations.
    Is that being done well? Is that to your satisfaction, 
Members of the Committee? Or is it as I believe, logically, a 
terrible delegation of an enormous power to very low-level--I 
don't mean to demean them, but very low-level----
    Ms. Lofgren. But they are not a judge.
    Mr. Brosnahan. They are not at all trained to do it. And 
immigration is very difficult. If they were trained in some 
other area of sheriff's activities, maybe that would be 
different.
    But immigration is--you have heard today how very 
complicated it is. And that has happened to Peter, and that is 
what is happening to other people.
    Ms. Lofgren. There are a number of issues that have been 
presented here today. I voted against the deputization of local 
police agencies as well as the expedited removal procedures.
    I remember saying in the Homeland Security Committee, we 
are going to end up deporting Americans here because there is 
not anybody with the skill set to make the important judgment.
    So there is the training issue. There is also, you know, 
the delegation issue. I have a personal belief that many 
lawsuits are being filed. And L.A. County has to pay, I think 
it may chill their passion for participation in this particular 
program.
    The estimates are that between 25 and 40 percent of the 
inmates held in county jails have a mental health problem in 
this country.
    And if that is the case, there desperately needs to be 
special protocols for individuals who are impaired.
    And I guess the question would be either for Miss Hartzler 
or Miss Rosenbloom, who specialize in this, are those protocols 
in place. And if not, you know, I am going to be following up 
with ICE on this, but don't you think that that would be a 
pretty obvious thing to do?
    Ms. Rosenbloom. It is absolutely essential. In the Guzman 
case and many of the other cases that we have documented show 
just how easy it is for someone to admit to being--to not being 
from this country and not having any legal status. It is 
completely untrue.
    And if either of the--or it is something that they think 
their questioner wants to hear, and for, you know, a mental 
disability patient to simply go along with that.
    And we absolutely need to--they are required under the 
Americans with Disabilities Act. And there is just simply no 
oversight.
    I think if someone like Mr. Guzman had gone before a 
neutral adjudicator like an immigration judge who had really 
questioned him, if he understood the weight of what he was 
admitting to right there, I think we would have--I don't think 
that his mother would have been wandering through the morgues 
of Tijuana for 3 months looking for him.
    Ms. Lofgren. Well, I know my time is up, but I would like 
to--as Ranking Member, I am going to take a little bit more 
time.
    But on the Guzman case, in a way, it is the poster child 
for this situation. I saw an article in the newspaper was how I 
first found out. And I was just stunned to think that this 
young man who has an impairment in terms of I.Q. would be 
basically just dumped in a foreign country.
    This is a Federal court's order, the Border Patrol, to be 
on the lookout for him?
    Mr. Brosnahan. Yes. And ICE, in this one case that I do 
know about, up to that point, was of no help. It is not their 
department to try to rectify it nor today.
    I mean, when you heard this gentleman come here, and I 
understand he has got a job to do, there is no note of apology. 
There is no note that the rest of us have to do. We didn't do 
well yesterday. We have got to do a better job. I am awfully 
sorry, Oversight Committee. We are going to really do----
    Here is the plan. Here is the plan. You heard no plan.
    So, yeah. They did nothing. There is a deep-seated--I have 
observed this before in my litigations. There is a deep-seated 
psychological resistance to the kind of management that you 
need in this agency.
    And I am just ecstatic, delighted, that this Committee 
thinks that you need to do this. You really need to do it.
    And you are going to have to send your questions, get your 
answers, and all of that. But they were no help at all.
    Very compelling case, a Federal judge got into it and 
started issuing orders.
    Ms. Lofgren. Well, my time actually has expired. So I am 
going to turn to Mr. Ellison for questions that he may have.
    Mr. Ellison. Thank you, Madam Chair. And also let me thank 
you for having a hearing.
    One of the great things about having the authority and 
power to call a hearing is that you can really bring to light 
issues that desperately need greater scrutiny.
    Mr. Graves, I am from Minnesota. And when the Swift raids 
hit, it sent a shock wave throughout the state. And it wasn't 
just our Latino community members who were upset, it was really 
everybody. And you know that because you were there.
    Let me ask you this: I mean, were people who were Latino in 
their background or appearance, even though they were American 
citizens, impacted by the officers who conducted this raid?
    Mr. Graves. I mean, you know, we work by them every day. 
And we don't know if they are legal or illegal. So we can't 
tell by the way they dress or how they talk. So, I mean, it is 
all up to--they know we don't know anything about them.
    Mr. Ellison. Yes. And so it really was just this was a 
group of Latinos; we will sort them out later. That is the way 
it seemed to me.
    Mr. Graves. Well, at first, ICE did come there with a list 
of names that they knew who they were coming for.
    Mr. Ellison. Yes.
    Mr. Graves. They could have went to HR and told them to 
come down one by one in that way. But they shut the whole plant 
down and--everybody, no matter who they were or what status 
they were.
    They shut the whole plant down.
    They did get the people that they were looking for, but 
they still had us detained until they processed everybody to 
see if they were still U.S. citizens or not. But, you know, the 
ones that was U.S. citizens, we were still stuck there until 
everything was all over and done with.
    Mr. Ellison. Well, that is an important point to make here. 
I mean, you know, I was, you know, sort of trying to get at 
that issue when I was speaking to Mr. Mead and didn't seem to 
really get very far.
    Thank you for your testimony.
    Mr. Brosnahan, is there a racially different impact with 
the ICE raids? I mean, it seems to me that----
    Mr. Brosnahan. Yes, sir.
    Mr. Ellison [continuing]. Mr. Mead said there wasn't one 
and it is all about the employers.
    Mr. Brosnahan. Well, I think--being of Irish extraction 
going back to the old days, I think when they set out after a 
group and the group thinks that there is an impact, then the 
government has to slow down.
    Listening today, that is the great tragedy of this. Our 
fellow citizens who are Hispanic, who contribute so much to 
this country, to say nothing of the undocumented Hispanics who 
contribute, you know, the 9,500 members of the Arizona Farm 
Workers who pick those lemons that go into the drinks in 
Washington--I don't know what is going to happen there.
    There is a reality out there in the world, and we are out 
in it, and yes, there is a war going on, and it is aimed at, 
certainly, the Hispanic community in a way that they feel it. 
And if they feel it, that should be enough for the government 
to say we have to figure out different ways than just taking 
over a factory, or whatever it might be, or a processing plant. 
We have to do something about this.
    You may have noticed recently, there are an awful lot of 
Hispanics in this country. And they have to be respected. And 
you get the idea from ICE that there is not that level of 
respect in what they are doing for the community.
    They think it is okay to hold people for 4 hours or 
whatever it is. That is what they think. Yes. I think there is 
a problem there.
    Mr. Ellison. Miss Mancha, could you describe for us just 
how you felt when you saw these strange men walking in your 
house? I mean, you are a young lady.
    I mean, what were some of the things that you were thinking 
as you saw these guys tramping in your house without a warrant? 
Invading your home?
    Ms. Mancha. I was really scared. I thought that they were 
going to take me. I didn't know what was going to happen. I was 
really scared.
    Mr. Ellison. Does it change the way you see strangers when 
they knock on your door? I mean, is it something that sort of 
still bothers you?
    Ms. Mancha. I am not--my mom is the same way, too, now. She 
keeps the doors locked at all times and everything. It not only 
hurt me, but it hurt my family a lot, too.
    Mr. Ellison. And Miss Mancha, you know, I am sure you were 
brought up to respect police and respect law enforcement and be 
cooperative and work with them. But it seems like this 
experience sort of made that a little harder for you; is that 
true?
    Ms. Mancha. It hurt me that they were supposed to, like, 
protect me, but they kind of hurt me.
    Mr. Ellison. Yes.
    Ms. Mancha. Like, busting in my house like that.
    Mr. Ellison. Yes. That wasn't right. That wasn't right. And 
I want you to know that even though I didn't have nothing to do 
with that, I am sorry they did that.
    Ms. Mancha. Thank you.
    Ms. Lofgren. Thank you very much. The Ranking Member has a 
request.
    Mr. King. Thank you, Madam Chair.
    I have a couple of documents that reference the incident in 
Chicago that our witness, I believe, should have been familiar 
with. I would ask unanimous consent to introduce them into the 
record.
    Ms. Lofgren. Without objections, those documents will be 
entered into the record.
    At this point, our hearing will be coming to an end. I 
would just like to say a few things in closing.
    First, for Miss Rosenbloom and Miss Hartzler, you are doing 
ongoing work here. And I am wondering if we could ask, as you 
are continuing your studies, would you keep us posted on what 
you are finding? I think that you are in a unique position to 
give us very valuable information that is comprehensive and 
very helpful?
    And for the rest of the witnesses, a lot of people don't 
realize that the witnesses before Committees are volunteers. 
They come here to help inform us so that we can make better 
public policy for our country.
    I do thank you, Mr. Graves and Miss Mancha, for your 
testimony, sharing what was really a very dreadful personal 
experience. And as Mr. Ellison has mentioned, we didn't do it, 
but I would like to offer an apology on the part of our 
government.
    What happened to you wasn't right, and certainly, you will 
have an opportunity in another forum, I think, to be heard.
    Mr. Brosnahan, thank you for coming all the way out from 
San Francisco.
    Mr. Stein, it is always good to see you.
    I would just note that I have about five pages of questions 
for ICE that I did not have an opportunity to ask today, but I 
will not only post them to ICE, but I will post them on the Web 
site so that others can see what we want to discover.
    Finally, I would just say that I think, clearly, no one can 
disagree with the need to enforce our laws, but the government 
must also comply with our laws as we enforce them.
    I have some very serious concerns in that latter regard 
based on the testimony we have had today. If the estimates of 
12 million undocumented individuals in the U.S. is correct, we 
don't know for sure, at the current rate of deportation, they 
would all be deported in 88 years.
    So I don't think the current program is really effective 
nor is it creating the kind of climate for Americans to feel 
that their rights under the Constitution are being respected 
and they are being treated with fairness.
    So this is an important hearing for us and for the 
Congress. I appreciate your willingness to be here. We will 
have 5 legislative days for each Member of the Committee to 
pose additional questions. If we have them, we will forward 
them to you, and we ask that you answer as promptly as you are 
able to do.
    Thank you very much.
    This hearing is concluded.
    [Whereupon, at 5:59 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Six months ago I first heard about a U.S. citizen deported from 
United States--Pedro Guzman who had to get himself caught by the Border 
Patrol in order to get back into his own country.
    At that time, I had hoped this case was one isolated incident. I 
asked the Immigration and Customs Enforcement (ICE) for answers on his 
case and specifically for procedures to help prevent another 
deportation of a U.S. citizen. Instead, I received a perfunctory 
response more than a month later, with no answers, and, at best, an 
apathetic attitude towards protecting U.S. citizens from deportation. 
Without objection, I would like to enter my letter and the ICE response 
into the record.
    There is never a justification for the deportation of a U.S. 
citizen, let alone the negligent attitude towards helping to locate and 
return a U.S. citizen when he or she is erroneously deported.
    Six months ago I feared this nation might be entering another era 
that would become one more blight in our nation's history. Based upon 
the witness testimony I have read for today and a long list of other 
individual cases, I fear we have arrived at that era where an 
overzealous government is interrogating, detaining, and deporting its 
own citizens while treating non-citizens even worse.
    It is true that ICE's enforcement capacity has grown exponentially 
in the last several years. But, based upon today's testimony, it 
appears training and oversight at ICE has lagged far behind. I am 
hopeful that this hearing will not only show us where the problems lie, 
but also lead us to solutions.
    I have many questions, beginning with the long list I asked in my 
June 26, 2007 letter to ICE that were essentially ignored. I would like 
to know specifically what procedures are in place to train and oversee 
ICE agents during detention, interrogation, and removal processes. I 
would like to know exactly how ICE ensures it is not interrogating, 
detaining, or deporting U.S. citizens. And I would like ICE to explain 
how it is that its policies, procedures, and management allowed for 
each of the situations described today by our U.S. citizen witnesses or 
their representatives.
    I respectfully request that our first witness, Mr. Gary Mead, the 
Assistant Director for Detention and Removal at ICE, remain after his 
testimony and questioning is completed on the first panel. It is 
imperative to hear first hand the stories of U.S. citizens caught up by 
ICE and the questions by Members of this subcommittee so that you may 
appropriately address these very serious concerns in writing after the 
hearing. Thank you.

                                <F-dash>

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    I'm disturbed by the reports I'm hearing that Immigration and 
Customs Enforcement (ICE) is deporting Americans. ICE can't go on 
deporting American citizens.
    There's no excuse to deport Americans. It's never right. It's 
always wrong.
    Over the past couple of years, ICE has grown dramatically in size 
and its activities have accelerated. ICE's Fugitive Enforcement Teams 
have dramatically increased from just 15 teams in 2005, to 50 teams in 
2006, to 75 teams in 2007, with funding for 104 in 2008.
    Based on reports I'm hearing, it seems ICE has been unable to keep 
up with the necessary training and oversight of its agents.
    I've heard disturbing accounts of ICE agents acting in an 
inappropriate and possibly illegal manner throughout the United States 
during its raids and enforcement activities. ICE agents have entered 
houses without warrants or even an announcement; have interrogated 
children without their parents present; and have searched the private 
property of U.S. citizens without probable cause.
    ICE also appears to be detaining U.S. citizens, and in some cases, 
deporting them.
    If ICE is intruding into the homes of Americans without warrants, 
if they are interrogating U.S. citizens without cause, and if they are 
going so far as to deport American citizens, what does that mean ICE is 
doing to non-U.S. citizens?
    In its zeal to rid America of the cooks, house cleaners, yard 
workers and construction workers who make up our shadow economy, ICE 
has taken an ``OK-at-any-cost-approach'' that is inimical to America's 
values. Caught in the crossfire are the innocent, many of whom are 
unable to protect themselves.
    That's inexcusable.
    I look forward to getting answers today. I am anxious to hear what 
ICE is and should be doing to adhere to the rule of law, to the very 
principles that make America the light of freedom and liberty to which 
others look as an example.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Madam Chair, thank you for your leadership in convening today's 
important hearing on the problems with U.S. Immigration and Customs 
Enforcement (ICE) interrogation, detention, and removal procedures as 
applied to U.S. citizens. I would also like to thank the ranking 
member, the Honorable Steve King, and welcome our distinguished group 
of witnesses, which include: Mr. Gary Mead, the Assistant Director for 
Detention & Removal with the U.S. Immigration and Customs Enforcement; 
Mr. James J. Brosnahan and Mark D. Rosenbaum of Morrison & Foerster, 
Counsel for Mr. Peter Guzman; Ms. Marie Justeen Mancha, a student at 
Tattnall County High School; Mr. Michael Graves from the United Food 
and Commercial Workers International Union, Local 1149; Mr. Kara 
Hartzler with the Florence Immigrant & Refugee Rights Project; Ms. 
Rachel E. Rosenbloom of the Center for Human Rights and International 
Justice at Boston College; and Mr. Dan Stein, President of the 
Federation for American. To each of you, welcome.
    Madam Chairwoman, how a government treats its citizens is a 
critical test that measures its civility and maturity. How we treat 
immigration detainees, especially the most vulnerable among them - 
minors, mentally-disabled, or those with medical conditions, is an 
important measure of how humane our entire immigration system really 
is. When our immigration system targets legal American citizens and 
interrogates, detains, and forcibly removes them from the United 
States, it is a clear indication that our immigration system is 
fundamentally flawed and has gone awry.
    Madam Chairwoman, one would think that a person born in the United 
States and a U.S. citizen, or a naturalized U.S. citizen, would have 
virtually no dealings with the U.S. immigration system. Recent events 
have come to show that this assumption is wrong. Indeed, recent reports 
demonstrate that U.S. citizens have been illegally detained, 
interrogated, and removed from the U.S. under the pretext that these 
citizens are illegal aliens. Citizens subjected to this treatment have 
included some of the most marginzalized and victimized members of our 
society--youths and the mentally ill. This is atrocious and inexcusable 
behavior by a civilized government.
    Madam Chairwoman, this behavior is being exhibited by the main 
executive agency with jurisdiction over immigration detainees, DHS' 
Immigration and Customs Enforcement. One of the primary functions of 
DHS is to protect the United States and to ensure the safety and 
wellbeing of U.S. citizens.
    In today's hearing, the witnesses will testify that ICE is not 
living up to its mandate. The witnesses will provide testimony 
demonstrating that our immigration system is flawed and needs to be 
reformed.
    Madam Chairwoman, as one of the principal and long-standing 
supporters of comprehensive immigration reform in the US Congress and 
an author of a comprehensive immigration reform bill, the SAVE AMERICA 
Act, I do hope that today's hearing will serve as a catalyst for closer 
scrutiny of our immigration detention system and the immigration 
enforcement functions of DHS.
    There are approximately 30,000 immigrants in detention on any given 
day and nearly 300,000 each year. These individuals are scattered 
across the country in hundreds of county jails as well as a handful of 
facilities run by DHS or by private prison companies. Some of these 
individuals have been detained. Others have been deported. The common 
denominator among all of these individuals is that they are U.S. 
citizens.
    Recent articles in USA Today, Washington Post, and New York Times 
have unveiled shameful and inexcusable inadequacies regarding the 
treatment of U.S. citizens by ICE. The USA Today and Washington Post 
articles detail the wrongful deportation of a mentally-ill U.S. 
citizen, Mr. Peter Guzman, who is also represented today on this panel.
    The New York Times article details extreme failures in ICE 
enforcement where ICE officials raided a home with guns drawn on a 
mother and her children in a raid that was part of a series of antigang 
sweeps in Long Island, New York. The raids, which resulted in 186 
immigrant arrests, were denounced by officials in Nassau County as 
``riddled with mistakes and marked by misconduct.''
    Perhaps the most inexcusable, is that the mother had been a U.S. 
citizen since 1990. The article details other accounts of raids and 
detention of U.S. citizens. Some of these illegal raids resulted in 
lawsuits against DHS and ICE.
    Madam Chairwoman, both ICE and its Office of Inspector General are 
not in a position to fix these problems. Instead, Congress must step in 
to help set this agency back on track. ICE cannot fix itself without 
our intervention.
    The DHS Office of Inspector General recently issued a report of an 
audit done on five ICE facilities and noted that ICE frequently fails 
to inspect even its own facilities sufficiently. This finding was 
further supported by a report released by GAO in July of 2007. adam 
Chair, we cannot turn a blind eye to ICE's enforcement measures and sit 
and hope that ICE corrects itself. Given the findings in DHS's own 
report, it is unlikely that ICE will correct its wrong enforcement.
    Congress has a responsibility to investigate these issues and call 
for reforms to ensure that dignity and respect for all human beings in 
our immigration detention system is preserved.
    Madam Chair, I cannot stress enough that detention and deportation 
are major enforcement issues and ICE enforcement needs to be reformed. 
Even where ICE attempted to do the right thing - a failure resulted. 
Take, for example, the detention facility at the T. Don Hutto 
Correctional Center in Williamson County, Texas. Corrections 
Corporation of America (CCA) operates the 512-bed facility under a 
contract with Williamson County. The facility was opened in May 2006 to 
accommodate immigrant families in ICE custody. As history has shown us, 
even the best of intentions can go astray, which is what happened at 
the Hutto Detention Center.
    Due to the increased use of detention, and particularly in light of 
the fact that children are now being housed in detention facilities, 
many concerns have been raised about the humanitarian, health, and 
safety conditions at these facilities. In a 72-page report, ``Locking 
Up Family Values: The Detention of Immigrant Families,'' recently 
released by two refugee advocacy organizations, the Women's Commission 
for Refugee Women and Children and the Lutheran Immigration and Refugee 
Service concluded that the T. Don Hutto Family Residential Center and 
another family detention center, the Berks Family Shelter Care 
Facility, were modeled on the criminal justice system ``where residents 
are deprived of the right to live as a family unit, denied adequate 
medical and mental health care, and face overly harsh disciplinary 
tactics.''
    The American Civil Liberties Union (ACLU) filed a lawsuit against 
ICE in March 2007 on behalf of several juvenile plaintiffs that were 
housed in the facility at the time claiming that the standards by which 
they were housed was not in compliance with the government's detention 
standards for this population. The claims were, amongst other things, 
improper educational opportunities, not enough privacy, and substandard 
health care. The relief being sought was the release of the plaintiffs.
    In August 2007, the ACLU reached a landmark settlement with the ICE 
that greatly improves conditions for immigrant children and their 
families in the Hutto detention center in Taylor, Texas.
    Since the original lawsuits were filed, all 26 children represented 
by the ACLU have been released. The last six children were released 
days before the settlement was finalized and are now living with family 
members who are U.S. citizens or legal permanent residents while 
pursuing their asylum claims. Conditions at Hutto have gradually and 
significantly improved as a result of litigation. Children are no 
longer required to wear prison uniforms and are allowed much more time 
outdoors. Educational programming has expanded and guards have been 
instructed not to discipline children by threatening to separate them 
from their parents. Despite the tremendous improvements at Hutto, the 
facility still has a way to go.
    Chairwoman, I hope that it will not take very many lawsuits and 
settlement agreements like we had in Williamson County Texas for ICE to 
cease interrogating, detaining, and deporting our own U.S. citizens. I 
look forward to hearing the insightful testimony and each of the 
witnesses' responses. Again, thank you, Madam Chairwoman for holding 
this hearing.
    I yield the balance of my time.

                                <F-dash>

Prepared Statement of the Honorable Hilda L. Solis, a Representative in 
                 Congress from the State of California
    I would like to applaud the Subcommittee, under the leadership of 
Chairwoman Lofgren, for holding today's hearing about Immigration and 
Customs Enforcement's (ICE) interrogation, detention, and removal 
procedures. I am hopeful that this important hearing will highlight the 
urgency for a legislative solution to the immigration workplace raids 
that are separating families and instilling fear in our children.
    Immigration is one of the toughest challenges our nation faces. 
Recent workforce operation raids conducted by ICE have been conducted 
in such a way that resulted in children being left without adult care, 
unnecessarily risking their safety and well-being and risking health 
and welfare during detention and processing of persons involved. 
Estimates suggest that there are approximately five million children in 
the United States who have one or more undocumented parents. Two-thirds 
of these children--more than three million--are U.S.-born citizens. 
Separating families puts children at risk of economic hardship and 
psychological trauma.
    While it is important that our nation's immigration laws be 
enforced, enforcement must be done in a way that is both humane and 
protects the children involved. That is why I joined Senator John Kerry 
to introduce the Families First Immigration Enforcement Act (H.R. 
3980). This legislation would protect immigrant detainees and their 
families from mistreatment and unnecessary separation from their minor 
children.
    Among other things, H.R. 3980 would require ICE to afford access to 
state social services to screen and interview detainees and arrange for 
representatives who speak the detainees' first language. Since many 
detainees are primary caregivers, this bill would also ensure that when 
possible, those who have been detained are within the jurisdiction of 
the local ICE field office. In the aftermath of a raid, families are 
left afraid especially when they do not have contact with their loved 
ones. This legislation would also require ICE to provide a toll free 
number for families to use after a raid and to inquire about the status 
of their family member.
    H.R. 3980 is supported by more than 20 organizations such as 
Catholic Charities USA, National Council of La Raza (NCLR), American 
Immigration Lawyers Association (AILA), Mexican American Legal Defense 
Education Fund (MALDEF), and Women's Commission for Refugee Women and 
Children.
    We cannot turn a blind eye to the injustices that are plaguing the 
immigrant community. Enforcement only solutions are striking fear in 
immigrant families across the country. I respect the difficult task 
which lies ahead and urge my colleagues to move forward with a solution 
that respects human dignity and protects children involved.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
